<html>
<title> - FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
  FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR FISCAL 
                               YEAR 2015

                              ----------                              


                        WEDNESDAY, APRIL 2, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Tom Udall (chairman) presiding.
    Present: Senators Udall, Coons, Johanns, Moran, Mikulski, 
Johnson, Graham, Kirk, and Coats.

                       DEPARTMENT OF THE TREASURY

             Office of Terrorism and Financial Intelligence

STATEMENT OF HON. DAVID S. COHEN, UNDER SECRETARY

                 OPENING STATEMENT OF SENATOR TOM UDALL

    Senator Udall. Good afternoon. The subcommittee will come 
to order.
    I'm pleased to convene this hearing of the Financial 
Services and General Government Subcommittee to consider the 
fiscal year 2015 funding needs of Treasury's Office of 
Terrorism and Financial Intelligence and its enforcement of 
sanctions.
    I welcome my distinguished ranking member, Senator Mike 
Johanns. I believe our Chairwoman, Barbara Mikulski, will be 
here at some point, and other colleagues, I think, will also 
join me on the dais today, and they may arrive through the 
course of this proceeding.
    This hearing will be unclassified, but if any Senator has a 
question that requires a classified response, we will reconvene 
in a secure setting, when schedules permit.
    So, with that, I'm going to start with my opening 
statement, and then I'll turn to Senator Johanns to jump in, 
and then we'll go to our honorable witness, here, David Cohen.
    Good afternoon. I'm pleased to convene this hearing of the 
Appropriations Subcommittee on Financial Services and General 
Government. I would very much like to welcome--well, I was 
welcoming Chairwoman Mikulski, but she's not here yet, so I'll 
welcome her when she gets here--and certainly welcome Senator 
Johanns, and we'll have other folks here today.
    I also want to welcome our witness, Under Secretary of 
Terrorism and Financial Intelligence, Mr. David Cohen. Thank 
you for your service, and I really look forward to your 
testimony today.
    The Office of Terrorism and Financial Intelligence--what 
some call, I think, TFI--is a small, specialized unit of the 
Treasury Department, but it is a critical component of our 
foreign policy. TFI safeguards our financial system and 
implements sanctions against rogue nations, drugpins, 
terrorists, and proliferators of weapons of mass destruction.
    The employment and use of sanctions has changed greatly. In 
2008, the U.S. sanctions against Iran were largely ineffective 
because of Iran's ongoing oil exports and trade with other 
nations. Since 2008, it's a different story. Congress has 
passed new sanctions against Iran. The administration has led 
an international effort to leverage those sanctions. The 
Iranian economy is crumbling, and this--look at what these 
sanctions have done--the Iranian economy is crumbling, 
inflation is rampant, oil exports have been slashed, and the 
currency is in freefall. These sanctions brought Iran to the 
table. Not only are the United States and Iran talking, but 
with four other permanent members of the U.N. Security Council 
and Germany, which, as we all know, is known as the P5+1, we 
have--that group, working together, has negotiated a Joint Plan 
of Action and are working to negotiate a final agreement to 
prevent Iran from acquiring a nuclear weapon.
    This is an important example. Sanctions can help achieve 
foreign policy goals, but they are a means to an end, not an 
end in itself. The progress in Iran is also a reminder, 
sanctions can be implemented in many different ways. It makes a 
large difference in the outcome, depending on how we use this 
powerful tool.
    A great deal depends on who is pursuing the sanctions. 
Analysis shows that sanctions are the most effective when more 
nations are enforcing them. Unilateral sanctions are less 
likely to be effective. And also, effectiveness depends on when 
we use them. If sanctions are applied at the wrong time, such 
as while our negotiators are working to iron out a deal, the 
administration has strongly urged Congress to hold off further 
sanctions on Iran at this sensitive time, because it could 
derail negotiations and limit our options.
    During this time, most sanctions are in full effect on 
Iran, and there are concerns that some companies are taking 
things a bit too far. So, I am interested to hear commitments 
that the sanctions regime is still strong. Properly applied, 
sanctions can work. We have seen this in Iran, and we have seen 
a renewed interest in sanctions as a foreign policy tool. For 
example, last week, in response to Russia's annexation of 
Crimea and continued defiance of the international community, 
the United States Senate gave the President new tools to punish 
the Russian Government for destabilizing Ukraine and seizing 
Crimea. I hope to hear more about these new sanctions, how they 
will be implemented by the Treasury Department to carry out our 
foreign policy goals with regard to Russia, and also how 
existing sanctions have worked with the Iranian Government, 
using the right leverage at the right time.
    Elsewhere, there have been failures, such as the sanctions 
against Saddam Hussein's Iraq and the ongoing failure of Cuban 
isolation that has continued for more than 50 years. They are a 
reminder, too. Sanctions should be used in concert with 
diplomacy and other efforts. This committee has an important 
oversight responsibility ensuring that Federal funds are spent 
wisely for the American people.
    We have two basic questions: What are the funding 
requirements of TFI to fulfill its critical mission? And what 
is the consequence of a shortfall?
    I have the honor of chairing this subcommittee and serving 
with Senator Johanns, and I really look forward to working with 
him on this topic. And I now turn to our ranking member, 
Senator Johanns, for any remarks he would like to make.
    And I also welcome our two colleagues here, Senator Coons 
and Senator Johnson, who have joined us.
    Thank you.

                   STATEMENT OF SENATOR MIKE JOHANNS

    Senator Johanns. Mr. Chairman, thank you so much for 
calling the hearing today. We're going to discuss a very 
important topic. We're going to talk about sanctions, their 
enforcement, their administration.
    TFI plays an important national security role. Its 
components and bureaus work together to safeguard our country's 
financial system and to combat terrorism, proliferation of 
weapons of mass destruction, money laundering, drug 
trafficking, and a whole host of national security interests. I 
think we all agree that sanctions can be a powerful tool and a 
useful tool in carrying out U.S. foreign policy and national 
security goals.
    An important example is in our dealings with Iran. Iran is 
a destabilizing force in the Middle East that continues to 
support terrorism and threatens our allies, such as Israel. For 
decades, Iran has provided funding, weapons, training, and 
sanctuary to numerous terrorist groups. I believe the only 
acceptable solution for a nation with this kind of track record 
is the full abandonment of its nuclear program.
    I think we all agree that the implementation of sanctions 
on Iran is what helped bring them to the negotiating table. 
However, I continue to have concerns about the effects of 
easing sanctions as the administration has done under the Joint 
Plan of Action. I also have concerns about how the 
administration is prepared to respond if a final agreement with 
Iran is not reached and negotiations collapse.
    I've joined a number of my colleagues in supporting a very 
bipartisan effort to impose stricter sanctions on Iran if 
ongoing negotiations between Iran and other nations fail to 
produce results. This bipartisan sanctions legislation, 
brokered by Senator Menendez and Senator Kirk, would simply 
keep the pressure on the Iranian regime while talks continue. 
If the negotiations do not reach the goal of a nuclear-free 
Iran, the sanctions in this bill are necessary. It also gives 
the administration continued flexibility in up to a year to 
reach a final agreement, provided Iran meets its obligations.
    I also believe this sanctions legislation should not be 
prevented from coming to a vote on the Senate floor. 
Remarkably, this legislation has 58 cosponsors, but, 
unfortunately, the Senate Majority Leader has blocked attempts 
to vote on this legislation because of objections from the 
administration.
    We must continue to send a firm message to Iran that its 
nuclear program must end. Recent actions by Russia also 
highlight the need for a robust and effective program for the 
administration and enforcement of sanctions.
    I think it's important for the United States and our 
European allies to impose economic sanctions in response to 
what Russia has done in the Ukraine. A strong response holding 
Russia accountable now might help deter it from similar 
pursuits in the future. I don't think President Putin cares one 
whit about what we say about him, but he'll be watching, very 
carefully, the actions we take. Strong sanctions could have an 
economic impact that would create problems for him with his 
citizens. I welcome the President's efforts to impose targeted 
sanctions against Russia.

                           PREPARED STATEMENT

    I think there are real opportunities for the President to 
step forward and unite European countries to push back using 
economic force. The Russian incursion into the Crimean region 
of Ukraine requires an unequivocal response that sends a clear 
message that Russia cannot interfere with the sovereignty of 
other countries.
    Mr. Chairman, I know that Iran and Russia are just a few of 
the countries for whom TFI administers and enforces sanctions. 
So, as we review the Treasury Department's budget request for 
fiscal 2015, I look forward to working with you, as we have 
always done in the past, to ensure that TFI has the resources 
necessary to carry out its critical mission.
    Thank you, Mr. Chairman.
    [The statement follows:]
               Prepared Statement of Senator Mike Johanns
    Mr. Chairman, thank you for calling this hearing today to discuss 
the Department of the Treasury's Office of Terrorism and Financial 
Intelligence (TFI) and its administration and enforcement of sanctions.
    TFI plays an important national security role. Its components and 
bureaus work together to safeguard our country's financial system and 
to combat terrorism, proliferation of weapons of mass destruction, 
money laundering, drug trafficking and other national security threats.
    The emphasis of today's hearing is on sanctions. The Office of 
Foreign Assets Control (OFAC) is responsible for administering and 
enforcing economic and trade sanctions against targeted foreign 
countries, terrorists, international narcotics traffickers, and those 
engaged in activities related to the proliferation of weapons of mass 
destruction.
    Sanctions can be a powerful and useful tool in carrying out U.S. 
foreign policy and national security goals.
    An important example is in our dealings with Iran. Iran is a 
destabilizing force in the Middle East that continues to support 
terrorism and threaten our allies, such as Israel.
    For decades, Iran has provided funding, weapons, training and 
sanctuary to numerous terrorist groups.
    I believe the only acceptable solution for a nation with Iran's 
track-record is the full abandonment of their nuclear program.
    I think we all agree that the implementation of sanctions on Iran 
is what helped bring them to the negotiating table.
    However, I continue to have concerns about the effects of easing 
sanctions, as the administration has under the Joint Plan of Action.
    I also have concerns about how the administration is prepared to 
respond if a final agreement with Iran is not reached.
    I have joined a number of my colleagues in supporting a bipartisan 
effort to impose stricter sanctions on Iran if ongoing negotiations 
between Iran and other nations fail to produce results.
    This bipartisan sanctions legislation brokered by Senator Menendez 
and Senator Kirk would simply keep pressure on the Iranian regime while 
talks continue.
    If the negotiations do not reach the goal of a nuclear free Iran, 
the sanctions in this bill are necessary.
    It also gives the administration continued flexibility and up to 1 
year to reach a final agreement, provided Iran meets its obligations.
    I also believe this sanctions legislation should not be prevented 
from coming up for a vote.
    This legislation has 58 cosponsors, but unfortunately, the Senate 
Majority Leader has blocked attempts to vote on any Iran sanctions 
package because of objections from the Obama administration.
    We must continue to send a firm message to Iran that its nuclear 
program must end.
    Recent actions by Russia also highlight the need for a robust and 
effective program for the administration and enforcement of sanctions.
    I think it is important for the United States and its European 
allies to impose economic sanctions in response to Russia's armed 
incursion into Ukraine.
    A strong response holding Russia accountable now might help deter 
it from similar pursuits in the future.
    I don't think President Putin cares one whit about what we say 
about him but he will be watching carefully to see what actions we 
take.
    Strong sanctions could have an economic impact that would create 
problems for him.
    I welcome the President's efforts to impose targeted sanctions 
against Russia.
    I think there are real opportunities for the President to step 
forward and unite European countries to push back using economic force.
    The Russian incursion into the Crimean region of Ukraine requires 
an unequivocal response that sends a clear message that Russia cannot 
interfere in the sovereignty of other countries.
    Mr. Chairman, I know that Iran and Russia are just a few of the 
countries for whom TFI administers and enforces sanctions.
    As we review the Treasury Department's budget request for fiscal 
year 2015, I look forward to working with you to ensure that TFI has 
the resources necessary to carry out its important mission.

    Senator Udall. Thank you very much, Senator Johanns.
    And I would now recognize Chairwoman Mikulski for her 
opening remarks.

              STATEMENT OF CHAIRWOMAN BARBARA A. MIKULSKI

    Chairwoman Mikulski. First of all, Mr. Chairman, I want to 
thank you and Senator Johanns for holding this hearing. It is 
the first hearing ever in the Financial Services Subcommittee 
on the--on making sure that we have adequate resources to 
implement sanctions. And I think that this really shows the 
vitality and vibrancy. And I'm glad it's going to be a 
bipartisan one, because, when it comes to national security, 
that's where it should be.
    So--we have a lot of Maryland constituents today--so, we 
thank you for this first-ever hearing.
    Mr. Cohen, I'm really proud of you, and I'm really proud of 
the 413 people--only 413 people--who work for the Department of 
Treasury implementing this, because, when we look at sanctions, 
it is the most important tool of diplomacy that we have to 
bring people to the table to begin serious negotiations or to 
comply with the negotiations agreed to. So, we look forward to 
hearing your testimony. I want you to be able to speak and us 
to get into very meaty, robust questions, but I will hope that 
we can focus on, What is it that we need to make sure you're 
provided with so that you can do the job the Commander in Chief 
and the Congress, through its authorizing legislation, ask you 
to do in these really hot spots around the world, particularly 
Iran, North Korea, Syria, and now with the new challenges of 
sanctions with Ukraine?
    So, thank you very much for your service, to all 413 
people, and we look forward to your testimony and working with 
you in this very important foreign policy area.
    Senator Udall. Thank you, Chairwoman Mikulski.
    And now I would invite Under Secretary Cohen to present 
your remarks.

                SUMMARY STATEMENT OF HON. DAVID S. COHEN

    Mr. Cohen. Thank you, Chairman Udall, Ranking Member 
Johanns, Chairwoman Mikulski, distinguished members of the 
Committee on Appropriations. And thank you for the opportunity 
to appear before you today to discuss the Department of 
Treasury's Office of Terrorism and Financial Intelligence.
    I'm especially proud to be here to discuss the work of TFI. 
For just over 3 years now, I have had the privilege of serving 
as the Under Secretary for Terrorism and Financial 
Intelligence. The women and men of TFI are an outstanding 
group--skilled, creative, patriotic, and enormously dedicated 
to their increasingly demanding jobs. I am impressed, every 
day, by the truly remarkable work of my colleagues. And, in the 
course of this hearing, I hope to convey to this subcommittee 
how much we all benefit from their magnificent work.
    TFI will soon celebrate its 10-year anniversary. And over 
this past decade, TFI's financial measures have become an 
increasingly crucial tool for protecting and advancing our core 
national security and foreign policy interests.
    The reason behind TFI's broadening mandate is simple. 
Nearly every national security threat has an important 
financial component. Effectively mitigating these threats 
requires creative thinking about how to leverage, pressure, and 
often exploit our adversaries' financial vulnerabilities. As a 
result, TFI has been increasingly called upon to deploy our 
tools to address national security threats in nearly every 
corner of the globe. The variety of the threats we face means 
that TFI's output must be the sum of TFI's many parts, from 
marshaling financial intelligence and analytical capabilities, 
to engaging businesses and governments around the world, to 
deploying regulatory actions and sanctions authorities, to 
enforcement actions.
    We are able to do this because of the unique structure of 
TFI and because of the support that we have received from this 
committee and from the Congress over the years.
    Treasury is the only finance ministry in the world with its 
own in-house intelligence unit. TFI's Office of Intelligence 
and Analysis, OIA, is comprised of subject-matter and trade-
craft experts who provide all source intelligence analysis used 
by Treasury officials and other intelligence customers 
throughout the U.S. Government, including the President. These 
analysts, who rely on financial intelligence as well as other 
sources, follow the money to help map the networks of our 
adversaries. Harnessing OIA's intelligence capabilities is 
crucial to the mission of other TFI components, including the 
Office of Foreign Assets Control (OFAC), our sanctions 
implementation arm.
    As you all know, OFAC's workload has grown dramatically 
since the creation of TFI, from managing 17 sanctions programs 
in 2004 to 37 today, addressing issues ranging from Iran to 
North Korea to Syria to, most recently, Ukraine, while still 
also pursuing our counterterrorist financing and narcotics 
trafficking programs, as well as others.
    Our sanctions programs are most effective when they stand 
on a foundation of strong systemic safeguards and financial 
transparency. To promote financial transparency, TFI's Office 
of Terrorist Financing and Financial Crimes, TFFC, develops 
policies and implements strategies to strengthen the integrity 
of the financial system and safeguard it from terrorist 
financing, money laundering, drug trafficking, organized crime, 
and proliferation finance.
    Meanwhile, the Financial Crimes Enforcement Network, 
FinCEN, implements the Bank Secrecy Act by designing and 
enforcing a regulatory framework to defend the U.S. financial 
system from money laundering and other serious financial crime.
    And finally, Treasury's Executive Office of Asset 
Forfeiture guides the strategic use of forfeited assets across 
the U.S. Government to disrupt and dismantle criminal 
enterprises.
    In sum, over the past decade, TFI has become a central part 
of the national security community, advancing important 
national security and foreign policy interests of the United 
States. And, as our country continues to turn to financial 
measures to address our thorniest foreign policy challenges, 
TFI will continue to craft these tools, implement them, and 
vigorously enforce them.

                           PREPARED STATEMENT

    Before I conclude, let me say a word about our resource 
levels. Notwithstanding the recent growth in our workload, the 
$102 million provided in the fiscal year 2014 Departmental 
Offices appropriation is sufficient to allow us to accomplish 
our mission, as is the President's budget request for fiscal 
year 2015. We have been able to increase our sanctions programs 
and other output by generating program efficiencies through 
effective management and by transferring funds, when needed, 
among organizations and programs within TFI.
    Thank you, and I look forward to addressing your questions.
    [The statement follows:]
               Prepared Statement of Hon. David S. Cohen
    Chairman Udall, Ranking Member Johanns, and distinguished members 
of the Subcommittee on Financial Services and General Government: Thank 
you for the opportunity to appear before you today to discuss the 
Department of the Treasury's Office of Terrorism and Financial 
Intelligence (TFI). My remarks will focus on the history of TFI, TFI's 
components, TFI's role in implementing sanctions programs, and the 
President's fiscal year 2015 funding request for TFI.
    I am especially proud to be appearing before this subcommittee to 
discuss the work of TFI. The women and men of TFI are an outstanding 
group--skilled, creative, patriotic, and enormously dedicated to their 
increasingly demanding jobs. For just over 3 years now, I have had the 
privilege of serving as the Under Secretary of TFI, and I am impressed 
every day by the truly remarkable work of my TFI colleagues. In the 
course of this hearing, I hope to convey to this subcommittee how much 
we all benefit from their magnificent work.
                       tfi background and history
    September 11, 2001, served as the catalyst for an important shift 
in the U.S. Government's approach to national security. Following that 
fateful day, there was a newfound recognition across the Government 
that disrupting the financial infrastructure of terrorist groups needed 
to be a part of our counterterrorism strategy.
    And in the 12 years since those tragic attacks, we have made great 
strides in developing a comprehensive, whole-of-government approach to 
combating terrorist financing. By all accounts, the United States has 
been at the forefront of this effort globally. The Treasury 
Department--and our powerful financial toolkit--have been key to this 
effort.
    And as the national security landscape has evolved over the past 
decades, so have Treasury's efforts. Far from just being focused on 
issues related to terrorist financing, Treasury's use of financial 
measures has become a crucial tool for protecting and advancing a much 
broader range of national security and foreign policy interests of the 
United States.
    The reason behind TFI's broadening mandate is simple: Nearly every 
national security threat has an important financial component. 
Effectively mitigating these threats requires creative thinking about 
how to leverage, pressure, and often exploit our adversaries' financial 
vulnerabilities.
    That is where TFI comes in. TFI has been recognized as a leader 
within the Government for its intelligence, enforcement, diplomatic, 
and regulatory capabilities. We have also been recognized for our 
substantive expertise on topics as varied as virtual currency, 
transnational organized crime, counterterrorism, and nuclear non-
proliferation.
    As a result, we have been increasingly called upon to deploy our 
various tools to address national security threats in nearly every 
corner of the globe. These tools include financial and economic 
sanctions, regulatory actions including section 311 of the USA PATRIOT 
Act, civil enforcement actions, advisories to the private sector, and 
conversations to alert foreign government officials as well as the 
private sector to particular threats.
                             tfi components
    The diversity of the threats that we face and the tools that we 
have to mitigate those threats means that TFI's output must be the sum 
of many crucial parts. Each of these parts meaningfully contributes to 
TFI's mission, from marshaling financial intelligence and analytical 
capabilities to engaging businesses and governments around the world to 
deploying regulatory tools and sanctions authorities.
    To better understand how all of these parts come together under the 
TFI umbrella, let me provide some detail on the structure of our 
office.
    TFI is comprised of five components: the Office of Intelligence and 
Analysis (OIA), the Office of Foreign Assets Control (OFAC), the Office 
of Terrorist Financing and Financial Crimes (TFFC), the Financial 
Crimes Enforcement Network (FinCEN), and the Treasury Executive Office 
of Asset Forfeiture (TEOAF).
    Treasury is the only finance ministry in the world with its own in-
house intelligence unit. OIA subject-matter and tradecraft experts 
contribute to every aspect of the intelligence cycle, providing all-
source intelligence analysis to Treasury officials and other 
intelligence customers throughout the U.S. Government, including the 
President.
    Harnessing OIA's intelligence capabilities is crucial to the 
mission of other TFI components, including OFAC. OFAC designs, 
implements, and enforces sanctions programs to disrupt and dismantle 
the support networks of terrorist groups, weapons of mass destruction 
(WMD) proliferators, drug traffickers, and organized criminal groups. 
OFAC's workload has grown tremendously since the creation of TFI. When 
TFI was formed in 2004, OFAC managed 17 sanctions programs. Today, it 
manages 37.
    Sanctions programs are most effective when they stand on a 
foundation of strong systemic safeguards in the financial sector. 
Indeed, one of the TFI's core missions is to ensure that these 
safeguards are part of our own domestic financial system and to 
encourage the adoption of similar safeguards around the world.
    The aim of these safeguards can be captured in one word: 
transparency.
    Transparency is critical to enabling financial institutions and law 
enforcement, regulatory, and other authorities to ``follow the 
money''--that is, to identify traces of illicit finance so that they 
can protect the integrity of the international financial system. Their 
efforts, in turn, deny terrorists, proliferators, and other criminals 
access to the financial system, forcing them to turn to costlier and 
riskier alternative ways of moving money.
    To promote international financial transparency, TFFC develops 
policies and implements strategies to strengthen the integrity of the 
financial system and safeguard it from terrorist financing, money 
laundering, drug trafficking, organized crime, and proliferation 
finance. TFFC also establishes strategic relationships across the globe 
to foster adoption of best practices while identifying priority threats 
to, and vulnerabilities in, the U.S. and international financial 
systems.
    Domestically, FinCEN implements the Bank Secrecy Act, designing and 
enforcing a regulatory framework to defend the U.S. financial system 
from money laundering and other serious financial crimes. To do so, 
FinCEN requires financial institutions to create and maintain records 
that are highly useful to law enforcement and collects, analyzes, and 
disseminates financial intelligence. FinCEN also works with counterpart 
financial intelligence units around the world to share information in 
an effort to prevent criminals from exploiting international borders to 
hide from justice.
    Meanwhile, TEOAF guides the strategic use of forfeited assets by 
Treasury, the Department of Justice, U.S. Immigration and Customs 
Enforcement, U.S. Customs and Border Protection, U.S. Secret Service, 
and other law enforcement agencies to disrupt and dismantle criminal 
enterprises.
    I will turn now to TFI's role in designing and implementing some of 
our sanctions programs. While these sanctions efforts vary in size and 
scope, all have achieved meaningful results in furthering important 
national security goals.
                   ukraine-related sanctions actions
    The Treasury Department has played a major role in the U.S. and 
international community's response to Russia's recent actions in 
Ukraine, including its support for an illegal referendum in Crimea, the 
purported annexation of Crimea, the dangerous risk of escalation caused 
by Russian troops in Crimea, and the potential for violence related to 
the buildup of Russian forces on Ukraine's eastern border.
    In response to Russian aggression, President Obama has issued three 
Executive orders (E.O.), which together provide the Secretary of the 
Treasury, in consultation with the Secretary of State, the authority to 
impose broad sanctions on Russia and others individuals and entities 
responsible for the situation in Ukraine.
    Armed with these new authorities, we have followed through on 
President Obama's warning that there will be real costs for Russia's 
incursion into Ukraine and its violation of Ukrainian sovereignty. So 
far, we have designated 31 individuals--including Crimean separatist 
leaders, Russian Government officials, and members of the inner circle 
of the Russian leadership--as well as Bank Rossiya, a mid-sized Russian 
bank.
    Those designated have had their assets in the U.S. frozen and are 
barred entirely from conducting business with, in, or through the 
United States. I suspect that they will also find it very difficult to 
conduct business outside the U.S., because our experience with other 
sanctions programs has demonstrated that major financial centers around 
the world often adhere to U.S. guidelines when it comes to the 
implementation of sanctions. In short, these individuals will find 
their ability to transact in the world economy severely constrained.
    Of particular note, the President has given the Secretary of the 
Treasury the authority to target Russian Government officials as well 
as those who materially support or act on behalf of senior Russian 
officials. Using this authority we designated individuals such as 
Gennady Timchenko, whose activities in the energy sector have been 
directly linked to President Putin, and Yuri Kovalchuk, the largest 
shareholder of Bank Rossiya and personal banker for senior officials of 
the Russian Federation.
    As I noted, we have also designated Bank Rossiya, which has served 
as the bank for President Putin and other senior Russian Government 
officials. Prior to its designation, Bank Rossiya was the 17th largest 
bank in Russia, with about $10 billion in assets and numerous U.S. 
dollar-denominated correspondent accounts here in the U.S., as well as 
correspondent accounts in Europe and elsewhere denominated in other 
currencies.
    Following our action last week, the bank's assets under U.S. 
jurisdiction are blocked, it has been frozen out of using the dollar, 
and it no longer has access to its correspondent accounts within U.S. 
financial institutions. And we are working with our partners in foreign 
governments and in the international private sector to further isolate 
the bank and stymie its operations.
    On March 20, the President signed the latest E.O., which authorizes 
the Secretary of the Treasury, in consultation with the Secretary of 
State, to sanction any individual or entity determined to operate in 
sectors of the Russian economy specified in the future by the Secretary 
of the Treasury, including the energy, metals, and mining sectors. This 
authority is a very powerful yet flexible tool that will allow us to 
respond quickly and meaningfully as events develop in Ukraine.
    We recognize that these measures will have the greatest impact when 
harmonized with the actions of our international partners, in 
particular in Europe and Asia, because of their extensive economic ties 
to Russia. We are in daily communication with our counterparts in the 
G-7, the European Union (EU), and other countries with significant 
financial and economic links to Russia to discuss how we can best adopt 
collective measures.
    These are serious measures with implications across the global 
economy. But while a diplomatic resolution remains the preferred 
outcome to the situation involving Ukraine, Russia must know that any 
escalation will only isolate it further from the international 
community and the international economy.
    Beyond our sanctions effort, Treasury has also used our tools to 
halt the misappropriation of assets from Ukraine. FinCEN has issued two 
advisories to U.S. financial institutions related to the unrest in 
country. These advisories remind institutions of their obligation to 
apply enhanced scrutiny to accounts and transactions conducted on or 
behalf of senior Ukrainian political officials, including those of the 
former Yanukovych administration, and to report any suspicious 
financial transactions.
                         iran sanctions program
    Our unprecedented sanctions on Iran have led the way in 
demonstrating the power and efficacy of our financial measures.
    From the outset of the Obama administration, we have pursued a 
dual-track strategy that paired an offer to Iran to rejoin the 
community of nations if it addresses the international community's 
concerns over its nuclear program with increasingly powerful and 
sophisticated sanctions if it continued to ignore those concerns.
    When Iran initially chose another path, we responded by crafting 
and implementing the most comprehensive, powerful, and effective set of 
sanctions in history.
    Today, Iran stands isolated from the global financial system with 
slashed oil revenues, an eroded currency, and a severely weakened 
economy.
    Our oil, financial, and trade-based sanctions helped drive Iran 
into deep recession. Since 2011, oil sanctions imposed by the EU and 
the U.S. have cost Iran over $100 billion in lost sales. Last year, 
Iran's economy contracted by 6 percent and is expected to perform badly 
this year as well. Its currency, the rial, has lost about 60 percent of 
its value against the dollar since 2011. And its inflation rate is 
about 30 percent, one of the highest in the world.
    This enormous pressure on the Iranian economy did not come about 
overnight. We have worked side-by-side with Congress to craft sanctions 
that target Iran's key sources of economic strength. We maximized the 
impact of these sanctions through TFFC's robust and persistent 
engagement with foreign governments and the private sector. Working 
alongside our interagency partners, we leveraged our in-house 
intelligence component, OIA, to identify Iranian pressure points. And 
then OFAC took action against illicit actors and their financial 
networks by targeting them with powerful sanctions.
    This has not been a simple task. In all, TFI enforces a 
sophisticated and complex regime of sanctions on Iran that encompasses 
10 statutes, 26 E.O.s, and 4 United Nations Security Council 
Resolutions. We supplement these tools by issuing public guidance, 
licenses that advance U.S. objectives, and advisories warning of 
concerning trends and practices.
    Although our sanctions have proved to be incredibly potent, we have 
not imposed sanctions for sanctions' sake. All along, the goal of our 
sanctions has been to induce a shift in the decisionmaking calculus of 
the Iranian Government and to build the necessary leverage for serious 
negotiations about its nuclear program.
    We are now in the midst of those negotiations. In the Joint Plan of 
Action (JPOA) that went into effect in late January, Iran agreed to 
take important steps to halt the advance of its nuclear program in 
exchange for limited, targeted, and temporary relief for 6 months. And 
as Iran has implemented its commitments to date, we have worked to 
fulfill our own.
    Even as we now seek to negotiate a comprehensive solution over 
Iran's nuclear program, the core architecture of U.S. sanctions--
especially our potent oil, financial and banking sanctions--remains 
firmly in place. And over the remaining 4 months of the JPOA period, we 
will continue to vigorously enforce these sanctions as well as the 
broad array of sanctions targeting Iran's human rights abuses and its 
support for terrorism.
                        syria sanctions program
    In Syria, the U.S. Government's policy is to isolate and degrade 
violent extremist networks and facilitate an orderly end to the 
conflict, with a clear transition to a new competent and representative 
authority. U.S. and international sanctions are a key component of this 
effort, and are designed to deprive the Assad regime of the financial 
means needed to support its relentless campaign of violence against the 
Syrian people.
    In the absence of UN sanctions regime, the United States has worked 
with the EU, the Arab League, and a host of other countries to build a 
robust international sanctions regime designed to pressure the Syrian 
Government and bring about an end to the conflict. In close 
coordination with our colleagues at the State Department, Treasury has 
played a key role in international engagement on Syria through the 
Friends of the Syrian People International Working Group on Sanctions, 
contributing to the U.S. Government's effort to coordinate broader and 
more effective sanctions implementation among like-minded countries.
    Since the Syrian uprising began in March 2011, President Obama has 
issued five E.O.s, each delegating authority to the Treasury Department 
to impose sanctions in response to the violence in Syria. These E.O.s 
significantly expanded the tools available to the U.S. Government to 
respond to the crisis in Syria, namely by isolating the Assad regime 
and key regime supporters and denying it the resources needed to fund 
its continued repression of the Syrian people.
    From the start of the uprising to date, Treasury has designated 
more than 200 Syrian individuals and entities pursuant to all of its 
relevant authorities. We have also used our authorities to expose the 
involvement of foreign actors in Syria. Treasury designations have 
drawn attention to Iranian support for the Syrian regime, whether 
directly or through its proxy, the Lebanese terrorist group Hizballah. 
Since the uprising began, we have designated the Islamic Revolutionary 
Guard Corps-Qods Force, Iran's Law Enforcement Forces, Hizballah, and 
Hizballah's Secretary General Hassan Nasrallah for providing material 
support to the Syrian regime's violent response to peaceful protests.
    Apart from sanctions against the Assad regime and its supporters, 
Treasury has also used its global terrorism authorities to target the 
activities of extremists groups operating in Syria such as al-Nusrah 
Front and the Islamic State of Iraq and the Levant (ISIL), the group 
formerly known as al-Qa'ida in Iraq (AQI). We have also been closely 
tracking the funding streams of these groups and have sanctioned 
numerous terrorist financiers sending funds to extremists in Syria.
                     north korea sanctions program
    Following the DPRK's April 2012 Taepo Dong-2 launch, the December 
2012 Taepo Dong-2 launch, and the February 2013 nuclear test, Treasury 
measures--including designations targeting the DPRK's nuclear, 
ballistic missile, and proliferation activities as well as the regime's 
access to luxury goods, and the financial networks that support its 
illicit activities--have impeded the development and slowed the pace of 
the DPRK's illicit programs.
    Over the past year, Treasury has designated two key North Korean 
banks: Foreign Trade Bank and Daedong Credit Bank, both of which 
provided crucial financial support to other U.S. and UN-designated DPRK 
entities, including North Korea's premier arms dealer. Since August 
2010, there have been seven Treasury designations under E.O. 13551, 
which targets individuals and entities facilitating North Korean arms 
sales, the procurement of luxury goods, and illicit economic 
activities; and 31 designations under E.O. 13382, which targets 
individuals and entities engaged in WMD proliferation-related 
activities.
    The DPRK's recent missile launches using ballistic missile 
technology on February 27, March 3, and March 26, 2014 are a clear 
indication that the DPRK is committed to aggressively pursuing its 
ballistic missile and nuclear programs, which have been prohibited by 
multiple UN Security Council (UNSC) resolutions. The United States will 
continue to fully implement both UNSC and U.S. sanctions authorities 
until it is clear to the DPRK that denuclearization is the only path 
forward and Pyongyang undertakes complete, verifiable, and irreversible 
denuclearization.
                      narcotics sanctions program
    Treasury has made significant progress in our efforts to target 
drug lords worldwide through authorities granted to us in the Foreign 
Narcotics Kingpin Designation Act (``Kingpin Act''). The Kingpin Act 
aims to hit drug traffickers in their wallets, depriving them and their 
key lieutenants and money launderers of access to the U.S. financial 
system. Since the law was passed, more than 1,400 individuals and 
entities have had their access to the U.S. financial system cut off.
    In 2013, Treasury designated 83 individuals and 67 entities 
pursuant to the Kingpin Act, and the President identified six 
significant international narcotics traffickers. Treasury focused on 
cartels operating out of Mexico and Central America by repeatedly 
targeting the family members and close associates of the Sinaloa 
Cartel, the associates and businesses of Los Zetas, and an ever-
expanding network of narcotics trafficking organizations in Central 
America. Treasury also continued to track the activities of major 
narcotics trafficking organizations in Colombia, which have ties to 
these Mexican and Central American organizations.
    One of the most influential designations last year was the 
September action targeting the Los Cachiros, a Honduran drug 
trafficking organization which plays a critical role in the 
transportation of narcotics from Colombia to Mexico. On the same day 
that Treasury designated this organization, the Government of Honduras 
embarked on a week-long seizure action against Los Cachiros' financial 
and commercial assets, including those businesses designated by OFAC, 
pursuant to the Honduran Asset Forfeiture Law. This success is similar 
to other forfeiture actions that have followed OFAC designations in 
Colombia and elsewhere.
                    global counter-terrorism program
    Over the past 12 years, OFAC has designated more than 800 
individuals and entities under our counterterrorism sanctions program. 
In 2013, we designated 87 individuals and entities with the aim of 
disrupting and degrading some of the most dangerous terrorist threats 
to our country, including al-Qa`ida in the Arabian Peninsula (AQAP), 
Lashkar-e Tayyiba, the Haqqani Network, and the Iranian Revolutionary 
Guards Corps Qods Force.
    Beyond the blocking of assets, a Treasury designation exposes 
terrorists' activities publicly, drawing them out of the shadows and 
alerting financial institutions and foreign governments to their 
nefarious activity. It also encourages corresponding actions from 
counterterrorism partners and the United Nations. But most importantly, 
the designations disrupt and degrade the finances of terrorist groups 
as those designated will never again be able to openly access the 
international financial system.
                          tfi resource levels
    Now that I have outlined some of our sanctions programs, I will 
discuss TFI's resource levels. Despite the recent growth in our 
sanctions programs, the $102 million provided in the fiscal year 2014 
Departmental Offices appropriation is sufficient to allow us to 
accomplish our mission. We have been able to increase our sanctions 
programs and other output by generating program efficiencies, effective 
management, and transferring funds when needed among organizations and 
programs within TFI.
    In short, Treasury's Departmental Offices appropriations in years 
past have been sufficient to support our operations and I believe that 
the fiscal year 2015 budget request is no different.
                               conclusion
    Over the past decade, TFI has become a central part of the national 
security community. Comprised of an extraordinarily talented and 
skilled group of intelligence analysts, policy advisors, sanctions 
investigators, and regulators, TFI, working with our interagency 
partners, has been crucial to our Government's efforts to disrupt 
illicit networks, protect the integrity of the U.S. and international 
financial systems, and, in doing so, advance the core national security 
and foreign policy interests of the United States.
    And as our country continues to turn to financial instruments to 
resolve our thorniest foreign policy challenges, TFI will continue to 
craft these tools, implement them, and vigorously enforce them.
    Thank you.

    Senator Udall. Thank you very much. And thank you for 
staying on time, there.
    I'm going to recognize each Senator for 7 minutes in each 
round and in the order of arrival here. And I'm going to start.

                        IMPACT OF SEQUESTRATION

    Under Secretary Cohen, you mentioned in your testimony that 
fiscal year--the fiscal year 2014 level of $102 million for TFI 
is sufficient to accomplish the mission of the office. However, 
in 2013, funding for TFI was $96 million, significantly less 
than both the current level and the fiscal year 2015 request of 
$106 million, because of sequestration. Can you explain how 
decreased funding affected TFI's ability to administer and 
implement sanctions, what activities were stopped or delayed, 
or what is the consequence of those reductions on our foreign 
policy goals? And how would fiscal year--the fiscal year 2015 
request level allow Treasury to implement a more robust 
sanctions program?
    Mr. Cohen. Thank you, Mr. Chairman.
    There's no question that the sequestration in fiscal year 
2013 had an impact on our ability to pursue our mission and to 
function at the highest level of effectiveness.
    Our budget is largely comprised of two components: salary 
and travel expenses. There are obviously some other aspects to 
it, but those are the two principal components, which, I think, 
reflects what we do. We have people who work on our sanctions 
programs, who are intelligence analysts, who are sanctions 
investigators, who put together the packages, who enforce our 
sanctions; and I have people who travel the world, meeting with 
foreign governments, meeting with the private sector around the 
world to talk about what we're doing, to seek support, to 
explain our sanctions programs, and to elicit as much 
complementary action from others as possible.
    I think you made the point, Mr. Chairman, that our 
sanctions programs are more effective when they are 
multilateral. There's no question that that's true. And one of 
the very important things that we do, beyond imposing 
sanctions, is travel the world to try and, as I said, elicit 
support from others to pursue the same objectives that we're 
pursuing.
    So, the sequestration cuts that were mandated impaired both 
our ability to fill jobs that became vacant through normal 
attrition. One way we addressed the cuts was by delaying 
hiring; as people would leave, we wouldn't fill those jobs as 
quickly as we would have liked. And we cut back on our travel. 
And so, our ability to meet with foreign counterparts to pursue 
our mission through those sorts of engagements was impaired.
    There's, you know, some long-lasting impact, particularly 
from the inability to hire as quickly as we would have liked to 
have hired. Happily, the sequestration has ended, and I think 
that the budget that we have for this year, and the budget 
request for next year, should allow us to pursue our mission 
completely.
    Senator Udall. Thank you very much.

                           BUDGET FLEXIBILITY

    You know, the President's budget for fiscal year 2015 was 
submitted to Congress on March 4 of this year. Since then, the 
Russian military marched into Crimea; last weekend, North Korea 
exchanged fire with South Korea; global events continue to 
unfold. Does this budget request include flexibility to respond 
to emerging global events? And how would you adjust resources 
if new global events occurred that were not anticipated?
    Mr. Cohen. Mr. Chairman, it does allow us to react to 
events as they unfold. To some extent--you mentioned the North 
Koreans; we obviously already have sanctions programs in place. 
I have people in my office who are dedicated to the--North 
Korea's sanctions effort and to all of the associated work 
involving North Korea. The situation with Russia and Ukraine is 
new. I did not have a cadre of people, certainly not on the 
order that I have working today, focused on those issues, you 
know, 6 months ago.
    That being said, the people who work for me in TFI are 
enormously skilled and capable of working on more than one 
program at a time and shifting their focus from one set of 
issues to another. And what we have done is drawn people and 
surged so that we are in a position to fulfill the demands 
coming from the President and across the administration, to 
ensure that we have very strong sanctions in place that are 
being implemented, and that we are prepared as the situation 
continues to unfold involving Russia and Ukraine.
    Senator Udall. Great. Thank you for both of those.
    I'm going to end a little early, because we have so much 
participation here, and try to set an example, in terms of 
time. We're going to try to stick to the 7 minutes so we can 
get everybody in.
    So, Senator Johanns, I'm going to turn to you for your 
questioning, and then to Senator Mikulski.
    Senator Johanns. Thank you, Mr. Chairman.
    And, Secretary Cohen, it's good to have you here today. We 
appreciate it immensely.

                             IRAN SANCTIONS

    The administration, as we have worked with them on 
sanctions relative to Iran, has remained firm in their position 
that additional sanctions would be difficult, or even harmful, 
to the current negotiations. Despite the fact that I--as I 
pointed out in my opening statement, I think that's the reason 
why we got Iran to the table, if you will.
    So, what I would like to ask you initially here is, What 
would the plan be to ensure that, in the event that there isn't 
a final agreement--let's say discussions collapse--what is the 
United States prepared to do, and what are you prepared to 
administer, in terms of a swift, firm response to those 
circumstances?
    Mr. Cohen. Well, Senator, I'd quite agree that it has been 
the sanctions, and the pressure that has been brought to bear 
through the sanctions programs that we've developed, and we've 
developed along with the Congress, that was a hugely 
significant factor in bringing Iran to the table in a much 
different fashion than we had seen over the preceding years. 
They came to the table last fall with a recognition that they 
needed sanctions relief to try to repair their economy, and 
that the only way that President Rouhani would be able to 
fulfill the pledge that he made to the Iranian people during 
the elections, of bringing the economy back from the dire 
situation that it was in, was through sanctions relief. And 
they understood that the only way that they could get that 
sanctions relief was through addressing the concerns--the very 
serious concerns with their nuclear program.
    We are continuing to implement the vast majority of the 
sanctions architecture that brought Iran to the table in the 
first place. There have been some that have been suspended, but 
the really powerful sanctions--the oil sanctions, the banking 
sanctions, the financial sanctions--those all remain in place 
even as we are fulfilling our commitments under the Joint Plan 
of Action to provide the limited, targeted relief that we've 
agreed to.
    In terms of what we would be prepared to do if a 
comprehensive solution is not achieved through these 
negotiations, I don't want to speculate on particularly what 
form or fashion those sanctions might take. I think we have 
said, from the President on down, that if the Iranians are not 
prepared to reach a comprehensive solution here, a negotiated 
solution, that we will not only ensure that the sanctions that 
have been suspended will come back into force, but that we will 
work with Congress to put in place more stringent sanctions, 
going forward.
    I think it's best to leave to another day exactly what that 
would look like, but I think there's no question that we 
recognize that--if we are unable to reach a comprehensive 
solution here, that we will be working with Congress on 
enhanced sanctions.
    Senator Johanns. One of the things I worried about--and I'm 
guessing it was a concern of yours--that some relief is given 
through the Joint Plan of Action--and I think that's been 
estimated to be about $7 billion----
    Mr. Cohen. Right.
    Senator Johanns [continuing]. Some argue it's actually more 
than that, some experts out there have written about that--one 
of my concerns is that, once the door opens, the temptation for 
other countries, other parts of the world, to squeeze that door 
further open and further open is just too great to pass up. 
Have you seen any evidence, at this point, relative to Iran, 
that that, in fact, is happening, that there's leakage 
occurring, that companies or countries are taking advantage of 
this Joint Plan of Action?
    Mr. Cohen. Sir, that is something that we have, as you 
might imagine, been watching very carefully, and have been 
taking very aggressive steps to try to forestall. And I can 
say, with some confidence, that we have not seen companies 
anywhere--Europe, the Gulf, Asia--trying to take advantage of 
this--as you described, the narrow opening, the--really the 
quite limited suspensions of the sanctions, to sort of get into 
the Iranian market, enter into business deals that would 
otherwise be sanctionable. We have not seen it. The estimate 
that we came up with at the time the Joint Plan of Action was 
agreed to, as you noted, was that it would be worth 
approximately a maximum value of about $6 to $7 billion.
    Senator Johanns. Right. Right.
    Mr. Cohen. The Joint Plan of Action has now been in effect 
for a little over 2 months. Nothing that we have seen leads us 
to question that estimate. If anything, that estimate is 
probably on the high side. We are not seeing companies trying 
to go into the Iranian market, strike deals that would be 
sanctionable, or frankly even, to any great extent, taking 
advantage of the narrow suspended sanctions that are 
permissible under the Joint Plan of Action.
    One of the reasons, I think, that that is the case is that 
we, in early February, announced a whole set of sanctions 
against people and entities, really, across the world. There 
was a financial institution in Germany that we applied 
sanctions to. There were three individuals in Georgia who were 
part of a sanctions evasion network that we applied sanctions 
to. There was an individual and his company in Spain, an 
individual and his company in Turkey. They were all subject to 
sanctions--we put sanctions on them in early February--which 
really, I think, gave a concrete example to what I've been 
saying, what Secretary Lew has been saying, what Secretary 
Kerry's been saying, and what the President said, which is that 
if anybody tries to violate the sanctions during this period of 
the Joint Plan of Actions we'll come down on them, as the 
President said, like a ton of bricks. We did that, and I think 
that sent a very strong message.
    Senator Johanns. Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator Johanns.
    Senator Mikulski.
    Chairwoman Mikulski. Thank you, Mr. Chairman.

                                STAFFING

    So, Mr. Cohen, according to the President's budget, you 
would get $4 million more this year. But, you have a lot more 
work to do. So, you think you can do this on 4 million more? Or 
are--or, let me go to, really, the workforce. You have, I 
think, 413 people working for you?
    Mr. Cohen. I have a slightly different calculation of the 
number of people working for me. What I--and it's a little 
complicated, because my----
    Chairwoman Mikulski. Well, let me tell you where I'm 
heading.
    Mr. Cohen. Okay.
    Chairwoman Mikulski. It's not the number.
    Mr. Cohen. Yes.
    Chairwoman Mikulski. You have a great background. You 
worked for two Presidents. But, I know you also clerked for a 
beloved figure in Maryland----
    Mr. Cohen. Yes.
    Chairwoman Mikulski [continuing]. Judge Norman Ramsey.
    Mr. Cohen. Right.
    Chairwoman Mikulski. Someone I admired so much, and both 
his first wife and----
    Mr. Cohen. Yes.
    Chairwoman Mikulski [continuing]. When she passed away, his 
second wife.
    Mr. Cohen. Yes.
    Chairwoman Mikulski. And truly an inspirational, 
transformational leader. I get--tell me the categories of 
people who work for you. Are they accountants, are they 
lawyers, are they skill sets? Or can you just dial them up 
anytime we pass a new sanction and go to a temp agency?
    Mr. Cohen. It's wonderful to be reminded of Norman Ramsey, 
who was a great man.
    The people who work for me are a collection of lawyers, of 
economists, of people who hold advanced degrees in national 
security studies and international affairs, intelligence 
analysts who have backgrounds as varied as art history, 
hardcore economics, former bankers, and many former lawyers, 
like myself, who have made the shift over to working in 
Government. It's a very diverse collection of people, who, as I 
mentioned, are able to sort of reorient themselves to surge and 
to move into new areas as the need demands----
    Chairwoman Mikulski. But, here goes to my question. I'm 
interested in recruitment, real retention, because, as--even if 
you can come with a great background, like in forensic 
accounting, a highly specialized field, and tremendous 
lucrative fields, where, if you know how to do this, there are 
a lot of other jobs that you could have, other than this. So, 
is recruitment and retention a problem, or is it that, if 
there's certainty in funding, in pay, and so on, with this 1-
percent pay-raise deal that we get, what----
    Mr. Cohen. There's no question that we're----
    Chairwoman Mikulski. In other words, we want to make sure 
you get to be you, and that you get to implement the laws that 
the Congress authorizes----
    Mr. Cohen. Right.
    Chairwoman Mikulski [continuing]. In partnership with the 
President of the United States.
    Mr. Cohen. I appreciate it. I think there's no question 
that retention is a challenge; in part, for the reasons that 
you identified, that I have people working for me who, on any 
given day, could walk out the door and increase their salary 
substantially. They have a skill set that is in demand, both 
domestically and, frankly, overseas, as well.
    I'll be candid, it was not made any easier by the shutdown 
that we went through last fall. I think that created a question 
in people's mind about why they are coming to work every day, 
or wanting to come to work every day for the Federal 
Government, when they're not being paid, and being told to stay 
home. That did not make things any easier.
    On the other side of the ledger, I will say, though, that 
we do benefit from, I think, a good reputation of being an 
organization where the work is incredibly interesting, where we 
are well supported, both within the Department, within the 
administration, and here in Congress, and you can come and work 
on----
    Chairwoman Mikulski. So, certainty.
    Mr. Cohen. Yes.

                          GOVERNMENT SHUTDOWN

    Chairwoman Mikulski. So, one, if you come for the mission, 
and there's certainty of the funding, that at least you'll get 
paid for the work you do and not sent home as nonessential--I 
mean, of the 413, or whatever, people work for you, how many 
were sent home during the shutdown?
    Mr. Cohen. The--a very large majority of the people who----
    Chairwoman Mikulski. The implementors of the sanctions were 
sent home?
    Mr. Cohen. We, in fulfilling our legal obligations under 
the Antideficiency Act, figured out how many people we could 
keep on board, and--in the expectation and the hope, frankly, 
that the shutdown would not last----
    Chairwoman Mikulski. Was it 10----
    Mr. Cohen [continuing]. For very long.
    Chairwoman Mikulski [continuing]. Percent? Was it 80 
percent?
    Mr. Cohen. I think, initially, it was a little bit--it was 
about 10 percent that remained at work. And----
    Chairwoman Mikulski. So, 90 percent of your workforce was 
sent home----
    Mr. Cohen. Right.
    Chairwoman Mikulski [continuing]. When shut down.
    Mr. Cohen. Initially.

                            ORGANIZED CRIME

    Chairwoman Mikulski. Well, let me, then, go to something 
else, because this hearing, I would hope, for other members, as 
for me, has been a wonderful tutorial on this. I know people 
like Senator Johnson's been involved in banking, is very 
familiar with this. But, you're really one of the big fighters 
against nuclear proliferators, weapons of mass destruction 
proliferators, and organized crime. Could you share with me--I 
think we're least familiar with the organized-crime sanctions. 
Could you tell us, quickly, in the few minutes that I have--and 
I do mean quickly----
    Mr. Cohen. I will.
    Chairwoman Mikulski [continuing]. In the spirit of 
cooperation--What is it that you do?
    Mr. Cohen. Yes.
    Chairwoman Mikulski. And what does it take to do that?
    Mr. Cohen. Yes. About 3 years ago, now, the President 
issued a new executive order going after transnational 
organized crime, which allows us to identify transnational 
organized criminal groups and then apply sanctions to the 
people in the businesses that are supporting those criminal 
organizations. We've identified, I think, about five different 
transnational organized criminal groups, from the Yakuza in 
Japan to the Brothers' Circle in Eurasia to the Camorra in 
Italy, and then have built out, as--this is sort of the pattern 
that we follow in many of our sanctions programs--built out the 
individuals and the businesses that are working underneath the 
umbrella of these criminal organizations, imposing sanctions on 
them, freezing their assets, preventing them from using the 
U.S. financial system, and then going around the world and 
asking our counterparts to take complementary action.
    Chairwoman Mikulski. I know my time's up.
    Senator Udall. Thank you, Chairwoman Mikulski.
    Senator Moran.
    Senator Moran. Mr. Chairman, thank you much.
    Mr. Secretary, thank you for joining us.
    Let me--I have two questions, and one is just a--I come 
across the wire this afternoon.

                       POTENTIAL RUSSIAN OIL SALE

    Reuters is reporting that Iran and Russia are close to a 
deal, swapping oil, bartering for other goods from Russia, 
indicating that--the deal is expected to be valued at about $20 
billion, indicates would perhaps further undermine our efforts 
with the most recent negotiations in Iran. And I wondered what 
you--what your thoughts were, your concerns were.
    `` `The indications are that Iran and Russia have made 
progress toward an oil-for-goods deal,' sources said, `that 
would be worth up to $20 billion, which would enable Tehran to 
boost vital energy exports, in defiance of Western sanctions,' 
people familiar with the negotiations told Reuters.'' Thoughts?
    Mr. Cohen. I haven't seen that most recent report, but I'm 
obviously familiar with this topic. There have been other 
reports about this.
    You know, what I can say is this. Since this issue first 
became something that we were aware of, we have been crystal 
clear to the Russians that any such deal is not only contrary 
to the spirit of the P5+1 negotiations that we're involved in, 
but would also be plainly sanctionable under a number of 
different authorities that we have. Obviously, the purchase of 
oil from Iran by Russia would be sanctionable. If they sold 
that oil to anybody else, that transaction would be 
sanctionable. Whatever financial institution in Russia would be 
involved in the payment for that oil would be subject to 
sanctions. We have been very clear with the Russians that----
    Senator Moran. But, the sanctions would go both ways, to 
both countries? Additional----
    Mr. Cohen. Sure.
    Senator Moran [continuing]. They would violate sanctions 
with Iran, violate--in violating that violation, it would cause 
us to be able to impose sanctions against Russia?
    Mr. Cohen. Correct. And, frankly, I think it was clear at 
the outset that we were prepared, if necessary, to take action, 
given our long history of applying sanctions against those who 
violate our sanctions all around the world. Frankly, I think 
what has transpired in the last several weeks has only 
reinforced the point, I would think, for the Russians, that 
we're not unwilling to apply sanctions against Russian entities 
and Russian individuals if the facts dictate. So----
    Senator Moran. So, it would be surprising if Russia and 
Iran entered into this agreement?
    Mr. Cohen. Look, I'm not going to predict what the Russians 
and the Iranians may do. We've been seeing reports about this 
sort of deal for many months now. It hasn't been consummated, 
to the best of my knowledge. I don't know that the report today 
really adds, necessarily, to the situation. I've seen reports 
like this, saying that they're close to this deal for many 
months now.
    But, as I said, we've been very clear with the Russians, 
and, I should also say, very clear with the Iranians, that, in 
the course of these P5+1 negotiations, that any sort of deal 
like this would not be conducive to----
    Senator Moran. In your--I mean, I think what you're telling 
me is that such a deal would be significantly contrary to the 
agreements we've reached with Iran, and would be a significant 
setback to the desired outcome of those negotiations?
    Mr. Cohen. Well, it certainly would not be a welcome 
development. And, as I said, it's one that we've told the 
Russians, from the highest levels of its Government on down, 
that we would look at with great disfavor.

                     TRADES BETWEEN TURKEY AND IRAN

    Senator Moran. Let me turn to Turkey. It--at least reported 
to me that there may be significant trades, in the billions of 
dollars, gold, other trade activity, originating between Turkey 
and Iran. And that would be true, despite the sanctions regime 
that is imposed against Iran. How is this occurring? What are 
we doing about it? I guess the initial question would be, Is 
there truth to it?
    Mr. Cohen. I will answer this question, to the extent that 
I can in this session, although I would make the same offer to 
you that I made to Senator Corker in another setting, which is, 
I'm happy to come in and talk about this in a classified 
setting, where I think we could----
    Senator Moran. Okay.
    Mr. Cohen [continuing]. Talk about this in greater detail.
    I think the short answer, and the answer that I can give 
you here, is that we have been aware of these allegations, have 
been watching very carefully the trade in gold between----
    Senator Moran. Yes.
    Mr. Cohen [continuing]. Really any country and Iran, 
preceding the Joint Plan of Action, where we've--where that 
trade has been--is--the sanctions on trade in gold is suspended 
under the Joint Plan of Action. But, since the summer of 2012, 
when the President issued an executive order that forbade the 
sale of gold to the Government of Iran, we have been watching 
the gold trade, and--let me put it this way. I don't think we 
have demonstrated any reluctance to apply sanctions, where 
we've seen violations. And this is an issue that has been one 
that we've been looking at, there's obviously been others 
outside the Government who have been focusing on this issue and 
writing about this issue. And I think I would probably best 
stop there.

                                 RUSSIA

    Senator Moran. Secretary Cohen, let me go back to Russia, 
before my 53, 52 seconds expire. How long ago did these 
negotiations begin between Russia and Iran? How long have we 
been monitoring this? When did we start expressing concern to 
Russia? Is this a matter of months, weeks? Did they predate the 
Ukraine and Crimea circumstance? When did this begin?
    Mr. Cohen. I think I would rather address that question in 
a different setting.
    Senator Moran. Okay. Thank you very much.
    Thanks, Mr. Chairman.
    Senator Udall. Thank you, Senator Moran.
    Senator Coons.
    Senator Coons. Thank you, Chairman Udall.
    And I'd like to thank full-committee Chairwoman Mikulski 
and Chairman Udall for convening this hearing.
    Mr. Under Secretary, thank you for your service. I want to 
thank you and the dedicated staff at the Office of Foreign 
Assets Control, and, in fact, all of TFI, for your tireless 
work.

                     ADDITIONAL BUDGETING RESOURCES

    This is all about a credible threat, in my view. I am 
convinced, the only reason Iran is at the negotiating table 
with us today, and the only reason we have any chance at ending 
their illicit nuclear program through peaceful means, is 
because of the vigorous and thorough enforcement of very tough 
sanctions enacted by Congress, enforced by the administration.
    And so, I'm concerned if, in the decade from 2004 to 2014, 
as you mentioned, the number of sanctions programs has gone 
from 17 to 37. Further, as Senator Udall mentioned, if, in just 
recent weeks since the President's budget was submitted, you've 
been handed an even broader range of tasks to take on, and the 
implications of some of the previous questions, whether it's 
with Turkey or with the Russian oil deal with Iran or with, as 
I may ask about, other issues in Africa or Syria, you have a 
very full plate.
    I admire that you say that the President's budget 
submission is sufficient, and that, through program 
efficiencies, effective management, and moving folks around, 
you can surge and meet whatever requirements there may be. But, 
I just want to suggest to you that it's at least this Senator's 
desire to give you an abundance of the resources to support the 
skills, the talent, and the ability in your workforce, not to 
move folks around in response to emerging challenges and 
threats, but to anticipate them.
    One of my concerns is that, as the Joint Plan of Action has 
moved forward, there have been some trade delegations, both 
announced and real, to Iran. I'm concerned that there are some 
folks, our allies and our adversaries, who view Iran as 
potentially open for business. And I think it's only with a 
credible threat of, as you mentioned, as the President 
mentioned, coming down on folks who violate sanctions like a 
ton of bricks, that we can keep moving forward.
    So, if we were to give you more resources, could you put 
them to effective use? Would they help deter those who think 
that they can evade sanctions, whether Russia or Assad in Syria 
or countries in Africa with whom Rouhani is conducting a charm 
offensive, or do you think they would be wasted? Could you 
effectively put to use additional resources in enforcing the 
sanctions regimes we have charged you with?
    Mr. Cohen. Well, Senator, thank you for the question, and 
thank you for the letter that you sent a few weeks ago. It is 
very encouraging to my folks to know that their work is 
appreciated.
    We do have sufficient resources, even as new issues come 
up, to continue to ensure that the Iran sanctions, for 
instance, are being fully implemented, full enforced. The 
designations we did in February, I think, reflect that. And, 
you know, we have not taken our eye off the ball at all with 
respect to Iran, even as we have surged in Ukraine.
    We draw on resources outside of TFI, we draw on resources 
from others in Treasury, we draw on resources in the 
intelligence community and in other agencies in the executive 
branch, through all of our work, and including when we have a 
need to really surge. I think we do a good job of managing our 
resources. And so, I would not say that we would waste whatever 
resources are given to us.
    And I think anyone would say that more is better than less. 
But, I do think that we are able to fulfill our mission, even 
as it expands and changes, some things rise to the top, others 
become less urgent, with the resources that have been 
appropriated and the resources that have been requested.
    Senator Coons. Well, Mr. Under Secretary, if I might, the 
point of the letter was to compliment you and the folks at OFAC 
and more broadly in your entity for their terrific work, and to 
express my appreciation for the value of their work. But, as 
Senator Mikulski mentioned, there is no temp agency to which 
you can turn. You may be able to draw from other places in the 
Federal Government--from the intelligence community or from 
other departments--but I have to presume they're conducting 
vital and important work in their agencies, as well.
    My concern is that I see no diminution in the scope and the 
importance of the issues for which you will need very 
technically skilled folks. I see no reduction in the number of 
our allies who need to be visited in person and whose business 
entities need to be convinced to not engage in sanctionable 
activities. In fact, as I mentioned, President Rouhani has been 
engaged in a charm offensive across Africa. There's, I think, a 
dozen African countries that, without some active engagement 
from the United States, may potentially engage in sanctionable 
behavior. The deal that's been contemplated, widely reported, 
both a deal to construct new nuclear facilities in Iran and to 
trade oil for other things with Russia, may also expand the 
scope of your work.
    I think you need more resources. I think we need to make it 
credible to the Islamic Republic of Iran, and to any country 
and any company that thinks they will skirt our sanctions 
regime or somehow get through this, to know that we have moved 
sanctions from a sideshow in the American diplomatic and 
military arsenal to center stage. And I think we need to make 
certain that you are robustly and fully staffed and funded. I 
thank you for your leadership and making sure that that work 
gets done, done well, and done in a timely fashion.
    Thank you.
    Mr. Cohen. Thank you.
    Senator Udall. Senator Coons, thank you very much.
    Senator Kirk.
    Senator Kirk. Thank you, Mr. Chairman.

                      VISA FOR IRANIAN AMBASSADOR

    I wanted to ask you about the recent decision of the 
administration to grant a visa to Hamid Aboutalebi, the 
proposed Iranian Ambassador to the U.N., to have the hostage-
taker in chief safe in New York City, sipping his latte on 
Fifth Avenue, thinking--he's probably laughing directly at you, 
at how weak and feckless that you are, that he can put 
Americans in incarceration for 444 days, and he actually 
managed to get a position inside the United States. Have you 
seen the comments of the Americans that were all held hostage 
by this idiot?
    Mr. Cohen. I have seen those comments, Senator, and share 
your concern with this individual taking up a position at the 
U.N.
    Senator Kirk. The fascinating thing is, this guy admits 
that he was a hostage-taker, and the Iranians stick us with 
this guy, just to laugh at you.
    Mr. Cohen. Well, Senator, as I'm sure you know, the 
question of whether or not to grant an individual a visa is not 
mine. I think, regardless of this particular individual----
    Senator Kirk. You do understand the kind of shock that we 
all have that the administration would do this?
    Mr. Cohen. Senator, I understand your position on this.
    Chairwoman Mikulski. Visas are issued by the--which 
Department?
    Mr. Cohen. The State Department, Madam Chairwoman.
    One thing I can say is, the work that we will do--the work 
that we have been doing and the work that we're going to 
continue to do, is utterly unaffected by who sits in the chair 
for Iran at the United Nations. Frankly, a position that does 
not affect, I think, in any way, what----
    Senator Kirk. I do remember the last guy who was in this 
position. He's now the Foreign Minister of Iran. Congressman 
Steve Israel and I went to see him for lunch one day in New 
York. He spent, like, an hour telling us how the Holocaust 
hadn't happened. And I said to him, ``Don't cause diplomatic 
incident. I'm stunned that you're raising this topic about 
events which happened two generations ago, not in your 
country.'' And he said, ``I was ordered to tell you the 
Holocaust didn't happen.'' That's the quality of the people 
that we are talking about, here.
    Mr. Cohen. Right.
    I--the--far be it from me to defend the quality of the 
people that Iran sends to the U.N.
    Senator Kirk. Even if they are involved in incarcerating 
Americans illegally?
    Mr. Cohen. You know, Senator, what I can tell you is that 
whoever Iran chooses for their Permanent Representative to the 
United Nations, the question of whether or not to grant that 
person a visa----
    Senator Kirk. David, you're about to get a letter signed by 
20 Senators, ``Don't grant this visa.''
    Mr. Cohen. Yes.
    Senator Kirk. Now that we have----
    Senator Udall. Senator Kirk, the--he doesn't grant the 
visa. It's over in the State Department. We're trying to----
    Senator Kirk. I realize----
    Senator Udall. We're trying to----
    Senator Kirk. I used to serve----
    Senator Udall [continuing]. Focus on----
    Senator Kirk [continuing]. In the State Department.
    Senator Udall [continuing]. His duties. So----
    Senator Kirk. Yes.
    Senator Udall [continuing]. His duties as the----
    Senator Kirk. I do realize that.
    Senator Udall [continuing]. TFI head.
    Senator Kirk. This is probably the only administration 
witness we have before the Congress after this announcement of 
Hamid Aboutalebi coming into the United States.
    Senator Udall. Well, the--Under Secretary Cohen, as you 
know, briefed the entire Senate, Democrats and Republicans----
    Senator Kirk. Right.
    Senator Udall [continuing]. In a confidential----
    Senator Kirk. David----
    Senator Udall [continuing]. Session, and every----
    Senator Kirk [continuing]. And I have worked quite a bit--
--
    Senator Udall. Yes, and everything was able to be done 
there. So, I think we should try to focus on his duties and 
responsibilities. Because I don't think he has anything to do 
with the visa. I think that's the State Department's----
    Mr. Cohen. That's correct.
    Senator Udall. You don't issue visas. Is that right?
    Mr. Cohen. That's correct.
    Senator Udall. But, I don't want to interfere with your 
questioning of him if----
    Senator Kirk. I would say----
    Senator Udall [continuing]. There is legitimate reason----

                       TEMPORARY SANCTIONS RELIEF

    Senator Kirk [continuing]. David, you didn't highlight 
something in your testimony, that--you also said the sanctions 
that Congress unanimously supported were key to bringing the 
Iranians to the table, but what you didn't say was that you 
vigorously opposed the passage of the Menendez-Kirk sanctions. 
So, the irony of your position----
    Mr. Cohen. Actually--Senator, if I might, the----
    Senator Kirk. I actually have a copy of the letter you sent 
me on that.
    Mr. Cohen. Right. And what that letter said was that the 
amendment, as it currently existed at that time, was one that 
we had concerns with in how it would be implemented. And what 
transpired after that hearing that day was that we worked with 
you, Senator, with Senator Menendez and others, to modify the 
provision that was ultimately enacted. As that provision was 
ultimately enacted, it addressed many of the concerns that 
animated that letter, and was ultimately crafted in a way that 
has proven to be extraordinarily successful in driving down 
Iran's ability to sell oil.
    I think the concerns that were expressed in that letter on 
December 1 of 2011, I think it was, when that letter was sent, 
were concerns that were with respect to the version of the 
amendment, as it existed that day, and----
    Senator Kirk. I would say, you know----
    Mr. Cohen [continuing]. It changed, subsequently----
    Senator Kirk [continuing]. If you remember----
    Mr. Cohen [continuing]. In a way that was much more----
    Senator Kirk [continuing]. If you remember, you and I were 
on the phone almost hourly at the time that we did that 
amendment, and we did make a number of changes to suit the 
administration.
    Mr. Cohen. That's right.
    Senator Kirk. At your request.
    Mr. Cohen. I think that's right.
    Senator Kirk. Yes. And when the Senate voted, it was 
unanimous. Not a single Senator stood with your position on 
this issue.
    Mr. Cohen. Well, as I said, what ultimately was enacted and 
what ultimately has proven to be so effective--and I take 
nothing away from your efforts and the efforts of Senator 
Menendez and the others who voted for that provision--what 
ultimately proved to be tremendously effective was a modified 
version of that amendment that allowed us to work in a way to 
drive down Iran's ability to sell its oil without roiling the 
international markets. And we've managed to, essentially, keep 
the price of oil at the same level that it was in December 
2011, while taking off----
    Senator Kirk. You briefly touched on a----
    Mr. Cohen. Yes.
    Senator Kirk [continuing]. On a point, here before the 
committee, saying up to $6 billion was released to the 
Iranians. That's about 50 years' support to Hezbollah.
    Mr. Cohen. I'm sorry, Senator, I didn't----
    Senator Kirk. If you look at the cost of Hezbollah to the 
Iranians, because they--on that organization--that killed the 
243 marines in Lebanon and killed our station chief in Lebanon, 
if you look at the yearly cost of that operation, you have 
provided almost 50 years worth of money to the Iranians through 
this negotiation process.
    Mr. Cohen. Well, Senator, what we agreed to in the Joint 
Plan of Action was to allow the Iranians access to $4.2 billion 
of their oil revenue that has been denied to them in overseas 
accounts over the course of the 6 months. The manner in which 
that money is being released by the banks that hold it to the 
Iranians--not American banks, banks overseas--is such that we 
have good visibility into where the money is going.
    If the Iranians continue to fund Hezbollah, which the 
Iranians have done for many years now and which has been the 
focus of many of my actions and actions of others in the 
Government, that is conduct that is not facilitated by the 
Joint Plan of Action, but is conduct that we, if we see it, 
will continue to take action against. I have no hesitation 
whatsoever in continuing to pursue and to try and disrupt 
Iran's support for Hezbollah, and we'll continue to do that.
    Senator Udall. Thank you very much.
    Now, Senator Kirk, your time's expired. I'm going to now 
move to Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    And thank you, Under Secretary Cohen.

                RESOURCES FOR EXPANDING RESPONSIBILITIES

    I've been amazed at OFAC's capacity to absorb additional 
sanctions implementation responsibilities over the years. OFAC 
Director Adam Szubin and his team have done an extraordinary 
job. Given that TFI and OFAC, in particular, have had to take 
on expanding sanctions responsibilities, which you describe in 
your testimony, how long do you think you can maintain this 
current level of excellence without additional staff and other 
resources being made available to meet expanding duties?
    Mr. Cohen. Well, thank you, Mr. Chairman, and thank you for 
your support over the years for our work.
    My folks in OFAC, and, frankly, across TFI as a whole, are 
working very hard. I think I said, in a prior hearing, they're 
working flat out, and I think that's a fair description. I've 
got an extraordinarily dedicated and extraordinarily 
hardworking group of people who work in TFI.
    I am comfortable that the current resources that we have 
appropriated this year and that the President has requested for 
next year are sufficient for us to continue to do that work. 
But, you know, I do not have people who come to work in the 
morning without anything to do. I've got everybody quite 
gainfully employed.

                         ADDITIONAL FLEXIBILITY

    Senator Johnson. The situations in Syria, Iran, Ukraine, 
and elsewhere, are all extremely complex and fluid, which makes 
flexibility a crucial element of Treasury's ability to respond. 
Are there things Congress should be doing now to provide you 
with additional flexibility to react nimbly to ongoing 
diplomatic challenges across the world?
    Mr. Cohen. Well, Senator, I think one thing that Congress 
could do to allow us to continue to have the flexibility to 
react nimbly to challenges as they develop is--when Congress 
legislates new sanctions authority, to ensure that we have 
discretion in how to implement those authorities. I think we 
have demonstrated, over the years, that we will employ the 
authorities that are given to us in an aggressive fashion and, 
in a relatively smart fashion, as well. But, the greater 
flexibility that we have in determining how and when to apply 
these sanctions authorities, the better able we would be, and 
we will be, to respond to issues as they arise. The more that 
it is predetermined exactly what sorts of sanctions must be 
applied, the more that the legislation is prescriptive in that 
respect, the more difficult it is for us to react in a flexible 
fashion.
    Senator Johnson. Under Secretary Cohen and Chairman, I will 
have to excuse myself. I have to chair another committee 
hearing. But, thank you.
    Senator Udall. Senator Johnson, thank you very much, and we 
very much appreciate your participation and the fact that we 
know you have another hearing going on. But, thank you for 
coming over.
    Senator Graham, we're--you weren't here at the beginning, 
but we're trying to----
    Senator Johnson. Thank you.
    Senator Udall [continuing]. Stick with 7 minutes----
    Senator Graham. Yes, sir.
    Senator Udall [continuing]: And get through everybody. 
We've had good, robust participation today, and really 
appreciate seeing you here. Thank you.
    Senator Graham. Well, thank you. Thank you for letting me 
come. I'm not on the subcommittee, but I really appreciate the 
invite. This is a well-run place around here.
    Chairwoman Mikulski. You got it.
    Senator Graham. Yes.
    Mr. Cohen, I want to compliment you and your team. I think 
you all have been very diligent in trying to enforce the 
sanctions, and--credit where credit's due. I think the 
sanctions have been implemented in a way to get the Iranians to 
the table.

                   BUSINESS DURING INTERIM AGREEMENT

    After the interim deal, how many delegations have gone to 
Tehran--foreign delegations--to discuss potential business 
opportunities with the Iranians? Do we know?
    Mr. Cohen. I think we know. I don't have that number right 
at hand. But, I'd--we obviously are----
    Senator Graham. Is it above or below 50, or do----
    Mr. Cohen. Fifty, did you----
    Senator Graham. Yes.
    Mr. Cohen. I--honestly, Senator, I don't----
    Senator Graham. Just provide it to us, if you could.
    Mr. Cohen. I will.
    Senator Graham. Yes----
    Mr. Cohen. Yes.
    Senator Graham [continuing]. That's fair. I think it's 
quite a lot.
    Mr. Cohen. Yes.
    Senator Graham. Before the interim deal, were there 
delegations going to Iran, talking about potential business?
    Mr. Cohen. Certainly not to the extent that we saw----
    Senator Graham. If you could----
    Mr. Cohen [continuing]. After the interim deal.
    Senator Graham [continuing]. Give us before the interim 
deal and after the interim deal, in terms of international 
engagement, I think it would be helpful, because I think 
there's a perception out there, true or not, that now's the 
time to think about doing business with Iran. And we want to 
make sure that doesn't go too far.
    Mr. Cohen. Okay.
    [The information follows:]
                       trade delegations to iran
    In support of the President's dual-track strategy towards Iran of 
pressure and diplomacy, the Department of the Treasury has engaged in 
extensive outreach to companies, financial institutions, and 
governments around the world to make clear the broad scope of our 
sanctions and our intention--which we have consistently demonstrated--
to actively enforce them.
    We continued these active efforts following the November 2013 
announcement of the Joint Plan of Action. Since that time, Treasury 
officials have spoken to hundreds of companies and traveled extensively 
to make clear that Iran is not open for business. As part of this 
campaign we have kept a close eye on countries from which we have seen 
trade delegations visit Iran to explore possible post-sanctions 
opportunities. Where we saw any risk to the pressure we built, we met 
with the governments of these countries and had frank conversations to 
express our concerns. We have not hesitated to take action against 
entities that have violated our sanctions. Indeed, since November 2013 
we have designated nearly 100 entities and levied almost half a billion 
dollars in civil penalties for Iranian sanctions evasion. At least 
partially as a result, we have not seen these delegations lead to 
significant new business for Iran. Indeed, as we expected, the economic 
benefits to Iran under the JPOA have been contained, and entirely 
insufficient to overcome the deep economic difficulties Iran continues 
to face.
    In response to the committee's request, please see the below list 
of countries we have observed sending trade delegations visiting Iran 
in the 2 years preceding or during the JPOA period (including to the 
present). Please note that this list is not intended to be exhaustive, 
and is based on open-source reporting.

------------------------------------------------------------------------
 
-------------------------------------------------
                         Afghanistan              Lebanon
                         Austria                  Netherlands
                         Azerbaijan               Oman
                         China                    Romania
                         Czech Republic           Singapore
                         France                   South Korea
                         Georgia                  Sweden
                         Germany                  Thailand
                         India                    Tunisia
                         Iraq                     Turkey
                         Ireland                  UAE
                         Italy                    Uzbekistan
                         Kazakhstan
------------------------------------------------------------------------

                         NORTH KOREAN SANCTIONS

    Senator Graham. North Korea is still being sanctioned by 
the United States. Is that true?
    Mr. Cohen. Yes, sir.
    Senator Graham. Have our sanction efforts deterred their 
nuclear program?
    Mr. Cohen. I think our sanctions, which are largely----
    Senator Graham. Can I help you?
    Mr. Cohen [continuing]. Focused----
    Senator Graham. No.
    Mr. Cohen. Yes.
    Senator Graham. No, it hasn't.
    Mr. Cohen. Yes. Well----
    Senator Graham. Well, since not--you're not a CIA-type 
person, but--I don't mean to interrupt--the truth of the matter 
is, the North Koreans are building--they have nuclear 
capability. So, I'll shut up and let you answer. Do you think 
the sanctions are deterring their nuclear program?
    Mr. Cohen. I don't think they're deterring their nuclear 
program. I think our sanctions have disrupted, to some extent, 
North Korea's progress in acquiring the material and acquiring 
the hard currency that they need to buy the material for their 
nuclear program.
    But, I quite agree with you that the North Koreans have 
been pursuing a nuclear program, and have done so 
notwithstanding our sanctions and sanctions that have been in 
place against North Korea for many years.
    Senator Graham. I would just invite subcommittee members to 
maybe get briefed up. It's pretty astonishing what they're 
doing, in spite of our best efforts. They're going down the 
plutonium track now.
    There was a reactor that was basically somewhat dismantled. 
Plutonium-producing reactors, part of--the last round of 
negotiations, is supposedly coming back online. So, I just want 
us to remember the North Korean model, that we tried sanctions 
that didn't work there.

                     GOAL OF NEGOTIATIONS WITH IRAN

    Now, the goal in Iran is to get the Iranians to dismantle 
their nuclear program. Is that the stated goal of the 
administration?
    Mr. Cohen. The goal with respect to our sanctions in Iran, 
I think, is twofold. One is to disrupt their ability to 
continue to develop a nuclear program, as well as to put 
pressure on the Iranian Government so that, as part of the 
dual-track strategy, where we have been offering the Iranians 
the opportunity to negotiate in a credible fashion with the 
international community with regard to their nuclear program, 
to create the incentives so the Iranians will actually come to 
the----
    Senator Graham. Right. But, what's the----
    Mr. Cohen [continuing]. Negotiating table----
    Senator Graham [continuing]. End game? What are we trying 
to accomplish in Iran?
    Mr. Cohen. We are trying to ensure that Iran does not, and 
cannot, develop a nuclear weapon.
    Senator Graham. Okay. So, one of the goals would be to 
dismantle the plutonium-producing reactor at Arak. Is that 
correct?
    Mr. Cohen. Senator, as you know, I am not the negotiator.
    Senator Graham. No.
    Mr. Cohen. My colleagues at the State Department are 
responsible for negotiating the deal. And I think just last 
week we had a classified session, where----
    Senator Graham. Wouldn't it help----
    Mr. Cohen [continuing]. We went into some of these issues.
    Senator Graham. Wouldn't it help you to know the goal? 
Because you're the guy driving the sanctions regime. I mean, 
you know, what are you trying to accomplish----
    Mr. Cohen. Right.
    Senator Graham [continuing]. With these sanctions? Which is 
to keep them from developing a nuclear weapon.
    Mr. Cohen. Right. The ultimate goal is what I said, which 
is to prevent Iran from developing a nuclear weapon.
    Senator Graham. Fair enough.
    Mr. Cohen. I am not----
    Senator Graham. Fair enough. Fair enough. I----
    Mr. Cohen. I'd leave it there.
    Senator Graham. Yes, fair enough.
    The Congress is debating among itself the idea of imposing 
sanctions under the following conditions: that, at the end of 
the 6 months, the Iranians haven't met the benchmarks that we 
all hope, which is a dismantling of their program, that 
sanctions would continue. Because the goal of the sanctions is 
to reach a result. And the new round of sanctions are tailored 
to meeting the goal. The sanctions would continue if the 
nuclear program is not substantially dismantled, I think is the 
way the new language reads.

                    IMPACT OF ADDITIONAL LEGISLATION

    Do you believe, if they violate the interim deal, a new 
round of sanctions will apply? Those are the two things. Do you 
think it would hurt your effort if the Congress got on record 
reinforcing the sanctions, in terms of the goal we're trying to 
achieve, and to deter them from cheating? Do you think that 
hurts or helps your effort?
    Mr. Cohen. Senator, the judgment of those who were involved 
in the negotiations--my colleagues at the State Department, 
and, frankly, the judgment of the President, who said he would 
veto any such legislation--is that it would not be----
    Senator Graham. Yes, I don't want to----
    Mr. Cohen [continuing]. Helpful to the----
    Senator Graham [continuing]. Get you on the wrong side of 
the President, but you're the guy dealing with the sanctions.
    Mr. Cohen. And I don't need this piece of legislation.
    Senator Graham. Okay, that's fair enough. You don't think 
you need any reinforcement, is what you're saying.
    Mr. Cohen. What I need is what we have, which is a very, 
very robust sanctions architecture that is in place, that we're 
enforcing, as well as the absolutely unquestioned credible 
threat that if the Iranians don't come to an agreement in----
    Senator Graham. I'm not going to get your comment on 
military policy, if that's where----
    Mr. Cohen. No, no. No, no. I'm not talking military policy. 
That if the Iranians are unable to, or unwilling to, reach a 
comprehensive solution, that this Congress and this 
administration will work together to impose additional 
sanctions.
    Senator Graham. The----
    Mr. Cohen. There is no one in Iran who, for a second, 
thinks that we would be unable to implement more stringent 
sanctions if the----

          COMPARISON OF SANCTIONS AGAINST IRAN AND NORTH KOREA

    Senator Graham. In 7 seconds, are the sanctions against 
Iran as robust as the sanctions against North Korea?
    Mr. Cohen. Well, the sanctions against Iran are broader and 
deeper than the sanctions against North Korea.
    Senator Udall. Thank you, Senator Graham. Thank you very 
much.
    Is--I assume there's an interest in a second round. I--
Senator Mikulski, you--I would--yes, I----
    Chairwoman Mikulski. Senator Graham--if I could comment to 
Senator Graham before you----
    Senator Udall. Oh, please. Chairwoman Mikulski, please.
    Chairwoman Mikulski. First of all, I'm so glad you came.
    Senator Udall. Yes, thank you for coming.
    Senator Graham. No one's ever invited me to anything, 
almost. I really----
    Chairwoman Mikulski. Well, it's a different----
    Senator Graham [continuing]. Appreciate it.
    Chairwoman Mikulski. But, just--this is----
    Senator Graham. Even my own caucus won't invite me to 
lunch.
    Chairwoman Mikulski. So, this is exact--well, that's a 
different thing. We're not going to go that far.
    Senator Graham. Okay, yes.
    Chairwoman Mikulski. Seriously----
    Senator Graham. Yes.
    Chairwoman Mikulski [continuing]. This is kind of the 
different kind of tone that Senator Shelby and I are trying to 
set.
    Senator Graham. And great.
    Chairwoman Mikulski. One is that many of these issues cut 
across a variety of subcommittees; and, within the various 
subcommittees, there's different expertise. So, you, sir, are 
the ranking member on State Department Foreign Ops. That's the 
authorizing committee. And your work on the Department of 
Defense, of course, is well known and almost legendary. So, you 
come----
    Senator Graham. At least in my own mind, yes.
    Chairwoman Mikulski. No, but, you see, you bring it to the 
table. And----
    Senator Graham. Thank you.
    Chairwoman Mikulski [continuing]. This is just great. And I 
could say this for us here, the fact that this was robust 
bipartisan participation, a couple of different committees. We 
had the banking authorizer here. This is great, because I think 
we had a tutorial, really, on what this office is--413 people, 
they enforce 37 different sanctions. This testimony is a 
teaching----
    Senator Graham. Mr. Cohen is doing a good job. I just----
    Chairwoman Mikulski. And what I wanted----
    Senator Graham [continuing]. Want to recognize that I know 
you're trying very----
    Chairwoman Mikulski. And what I just wanted to say is that, 
if the Joint Plan of Action falls apart, and the Congress then 
moves to take needed action, I will--because this is in July--
make sure that we, as appropriators, would accommodate whatever 
it takes to up the game for them to be able to implement 
whatever we do.
    So, I think if we all--that I want us to think that we're 
all in this together to protect the United States, to protect 
treasured allies. And I think this has just been the kind of 
hearing where we look at the resources and look at the cause. 
And I'm glad that you came.
    Senator Graham. Thank you very much.
    Chairwoman Mikulski. And I really want to----
    Senator Graham. Thank you both.
    Chairwoman Mikulski [continuing]. Thank both you and 
Senator Johanns for this very content-rich conversation here.
    Senator Udall. Thank you very much, Senator Mikulski.
    And we will invite you again when we need your expertise. 
We appreciate it. We appreciate it very much.
    But, what--yes, what----
    Chairwoman Mikulski. And I like being ex officio. I just 
invite myself.
    Senator Udall. But, we--and I very much appreciate your 
work, and I think everybody does, here. I couldn't emphasize 
enough--and you've seen it, from both the Republican side and 
Democrat side, echoed here. We know--need to know the resources 
you need in order to do your very important job, and it's 
just--you need to let us know and be in touch with us as we 
move down the road and we get into these crisis situations, 
where we're trying to move from Russia to Ukraine to a variety 
of sanctions.

                       TEMPORARY SANCTIONS RELIEF

    And I wanted to come back to--because I think one of the 
members raised this issue of the narrow window and the idea--
Senator Graham raised this in his question, in terms of visits 
to Tehran and all of that. You said that the number, in terms 
of--the prediction was $6 billion to $7 billion, and you said 
the number's actually lower. And I was wondering, Why is that? 
What--the prediction was going to be up in that range, and it's 
actually been much lower. What has caused that?
    Mr. Cohen. The estimate--the $6 billion to $7 billion 
estimate included a number of different components that, 
together, added up to $6 billion or $7 billion, including the 
essential value of transactions involving auto parts, which was 
one of the suspended sanctions, and potential transactions 
involving petrochemical sales. And, thus far, we have seen very 
little pickup in either of those two areas.
    I think that is, in part, due to the fact that the Joint 
Plan of Action is in effect for 6 months, which means these 
sanctions are suspended for 6 months, and the international 
business community and the international financial community 
knows that, for the transaction to be nonsanctionable, it needs 
to be completed, from, order to manufacture to shipment to 
payment, within that 6-month period. That's not a very long 
period of time. I think it has dissuaded, frankly, some from 
taking advantage of that.
    Now, I should say, the lion's share of the $6 billion to $7 
billion is this $4.2 billion in Iran's own assets, its own 
funds overseas that are going to be released over the course of 
the 6 months. We have fulfilled, in good faith and completely, 
our obligations, thus far, to release--or to allow the release 
of, I think, three of the tranches. And we'll continue to do 
that over the course of the 6 months.
    Senator Udall. Thank you for that answer.

          COMPARISON OF SANCTIONS AGAINST IRAN AND NORTH KOREA

    The issue here was raised of North Korea and sanctions 
working, in terms of North Korea. And the thing that seems to 
me--I mean, looking at sanctions on North Korea and sanctions 
in Iran--is, we--the difference is the large number of 
countries--the P5+1--that are participating, and the actual 
robust ability for them to engage in this sanctionable 
activity.
    The problem we have in North Korea is China, which--that's 
my sense. They seem to, when it gets to the point that North 
Korea needs to be rescued, you have economic rescue packages 
that occur, and those numbers have been going up. And that's a 
much more difficult one, I guess, for us to deal with.
    But, I--those are my thoughts on that. I'm wondering what--
and things that I've read and heard about--what are your 
thoughts there, in terms of the--comparing--if you had a 
comparison of North Korea and the Iranian situation?
    Mr. Cohen. Yes. Well, there's no question that Iran, before 
we embarked on the sanctions effort, was much more integrated 
into the global economy than North Korea is today or ever has 
been. I mean, North Korea is quite isolated, for reasons 
unrelated to sanctions, related to the government that they 
have there. So, the same techniques and the same sanctions that 
we've applied to Iran are not, sort of, easily just translated 
into the North Korea context.
    That being said, there's no question that North Korea is 
also susceptible to sanctions, and we have applied sanctions 
against North Korea. And I would--and would cite one sanction, 
in particular, which is, about 9 months ago now, we imposed 
sanctions on something called the Foreign Trade Bank in North 
Korea, which was their major foreign exchange financial 
institution. It was the principal way in which all the banks in 
North Korea would be able to transact with banks outside of 
North Korea. We saw Chinese banks cut off the Foreign Trade 
Bank. Some of the major Chinese banks that had held accounts 
with the Foreign Trade Bank severed those accounts.
    So, I think that was, in part, a response to what we did; 
it was, in part, a response to some of the outreach that we 
made to the Chinese; and it was, I think, in large part, a 
dividend from years of effort to spread the word about 
financial integrity and financial transparency and the major 
Chinese banks recognizing that their reputation for financial 
integrity is something that is important to them as they 
interact with the rest of the world.
    And so, it is absolutely true that the majority of North 
Korea's relationship is with China, but we've also had some 
success with China in applying pressure to North Korea.

                IMPROVING SANCTIONS AGAINST NORTH KOREA

    Senator Udall. Yes. Are--what could Treasury do to make 
sanctions more impactful against North Korea under the current 
sanctions regimens that----
    Mr. Cohen. Yes. Well, we're going to continue----
    Senator Udall. What tools are----
    Mr. Cohen. Yes.
    Senator Udall. You know, what tools are missing to make 
them more effective?
    Mr. Cohen. Mr. Chairman, I'm not sure that we have any 
tools that are missing. What we are going to continue to do is 
to implement the sanctions programs that we have in place, 
which are focused on North Korea's efforts to develop its 
nuclear program as well as North Korea's other illicit 
activity. You know, this is an issue that gets a great deal of 
attention in the Treasury Department as well as, across the 
national security community, and we're going to continue to 
pressure North Korea.
    Senator Udall. Yes. Thank you very much.
    Senator Coats, you haven't had a chance to question, here. 
And so--we all have, and so you're still in your first round. 
So, then we'll come to you and then I'll come back to my 
Ranking Member, the distinguished Senator Johanns, here.
    Senator Coats. Okay, thank you, Mr. Chairman.
    I just want to follow up on a parochial question, if you 
don't mind, and that is--the Indiana delegation sent to 
Pentagon, Under Secretary Hale, a letter, dated March 24, 
asking some questions about the AMFO initiative. That's the 
Army Financial Management Optimization Program. Number one, I 
want to commend you, because, you know, unprecedented in my 
career, we received a letter back on March 26 of the same year. 
So, I'm very impressed with that. So, I want to--a word of 
thanks, there, in terms of response.
    But--and I was just looking through that letter. It 
actually went to Congressman Carson. There are a number of us, 
both Senators and members of our congressional delegation.
    And the question is, on this--your--the review of this new 
system. It potentially involves your--and I quote from the 
letter, ``possibly including reductions in numbers of DFAS 
personnel at certain locations. We will make every effort to 
accommodate any changes through attrition.'' I'm not here to 
get a specific answer from you, but to better understand what 
is happening and how--and I think there's probably a trial plan 
that's going to be put in place, if that rings a bell. What is 
it you're trying to accomplish? And what are some of the 
consequences of that going to be to the current DFAS system--
locations personnel, et cetera?
    Senator Udall. Mr. Secretary--Under Secretary Cohen, I just 
wanted to----
    Senator Coats. I just got a note saying I'm at the wrong 
hearing.
    Senator Udall. Oh, okay.
    Senator Coats. This is--I've got the right room number, but 
the wrong hearing.
    Mr. Cohen. Well, that would explain why I didn't----
    Senator Coats. I appreciate----
    Mr. Cohen [continuing]. Know anything about this letter.
    Senator Coats. Well, this is the first time this has ever 
happened to me, but I hope it's not a precursor of what may----
    Senator Udall. You're always welcome in our committee, and 
you----
    Senator Coats. Well, thank you. I saw some familiar faces, 
and I thought this is where I should be.
    Well, I'm going to let you off the hook on this one.
    Mr. Cohen. Thank you, Senator.
    Senator Coats. All right. I hope you're able to respond as 
quickly as the Under Secretary of the Army has been able to 
respond. I'll go to try to find out where I'm supposed to be.
    Mr. Cohen. Okay.
    Senator Coats. Thank you.
    Senator Udall. Thank you.
    Senator Johanns.

                              OIL EXPORTS

    Senator Johanns. Mr. Secretary, I think you can tell from 
the--maybe, the line of questioning on both sides of the aisle, 
that what we're searching for here is--we want to make sure 
that whatever we're doing here, from a policy and a funding 
standpoint, doesn't interfere with work that you're doing. I 
don't detect any dissatisfaction whatsoever, again, on either 
side of the aisle, with the work of you and your folks. And I 
just want to emphasize that.
    But, the success of sanctions with Iran, I believe, has 
been built over a period of time. It was, ``Try this.'' That 
wasn't working so well. ``Try that.'' While, at the same time, 
your group was discovering, learning, trying various things 
that we were authorizing you to try, until finally we got 
Iran's attention, and all of a sudden there's discussions that 
they want to sit down and negotiate.
    My worry--and, I think, the worry of many of us--is that, 
if we pull one string out of the sweater of sanctions, the 
sleeve comes off, and then all of a sudden you folks are 
sitting out there, saying, ``My goodness, we had them where we 
needed to be, and this is falling apart.'' We don't want that 
to happen.
    So, let me follow up, if I might, on a question that 
Senator Moran asked you about, the agreement with--or potential 
agreement with Russia, or discussions, whatever else is going 
on there. Isn't it true that, since the sanction agreement was 
reached with Iran, that their oil exports have, in fact, 
climbed and they are over the level that was permitted by that 
interim agreement?
    Mr. Cohen. Senator, the interim agreement looks at oil 
sales over the course of the 6-month period. It's not a month-
by-month----
    Senator Johanns. Right.
    Mr. Cohen [continuing]. Analysis. Our assessment--and I'd 
say ``our,'' in the sense of the administration, because it's 
actually the State Department that tracks the oil sales----
    Senator Johanns. Right.
    Mr. Cohen [continuing]. Not the Treasury Department----
    Senator Johanns. Right.
    Mr. Cohen. But, I think the sense is that, over the course 
of this 6-month period of the Joint Plan of Action, we are 
comfortable that Iran will stay--or actually, more 
specifically, the purchasers will stay within the level that 
was agreed to in the Joint Plan of Action. There are 
fluctuations, month to month. I would encourage you to have the 
State Department's oil experts come and talk to you about this. 
But, I think the sense is that we're not alarmed by some of the 
reports that have been in the public press.
    Senator Johanns. Yes. And I'm certainly not saying that the 
Joint Plan calls for a day-by-day assessment, and if you sold 
more one day, then you've got to sell less the next day and----
    Mr. Cohen. Right.
    Senator Johanns [continuing]. Square up the books or true 
up the books. But, what I am saying is, if you look at the 
period of time between now and when the Joint Plan started, it 
appears to me that they're on the wrong course.
    Mr. Cohen. Yes. And, I don't mean not to answer your 
question directly, but I don't track the oil figures with that 
specificity. I know that my colleagues at the State Department 
are comfortable that, even if there has been some slight 
uptick, that it's nothing that is going to call into question 
the fundamental nature of the Joint Plan of Action.

                    IMPROVING NORTH KOREA SANCTIONS

    Senator Johanns. Well, let me, if I might, just ask a 
question or two about North Korea. North Korea, I think, is a--
just a source of concern for everybody, and a source of 
frustration, because--I'll just be honest with you, I think 
North Korea, from time to time, shakes the world down. They 
need resources, they need money, and all of a sudden we're off 
to the races. It's almost as predictable as Christmas arriving.
    Are we missing something with North Korea? Is it time to do 
a more thorough assessment of the sanctions that are in place, 
and ask ourselves, Are these the right sanctions at this time? 
Are there additional approaches that we should be employing?
    I guess what I'm asking is, Are we at a stage where 
Congress should be looking at a more comprehensive approach to 
what's transpiring, relative to sanctions, in North Korea?
    Mr. Cohen. Well, what I can tell you is that we are 
constantly reevaluating what we have been doing with respect to 
North Korea. I was going to say ``in every one of our 
programs,'' but I think it is especially true with respect to 
North Korea, because in answer to a prior question, I think it 
is--it is unavoidable, the conclusion that we have not deterred 
North Korea from the path that it's been on. And it's a very, 
very worrisome path.
    So, I can tell you that this is a topic that is actively 
under consideration within the administration, how--not just 
through sanctions, but all of the ways that we have to project 
power and to address this issue, thinking about how to, 
frankly, change the course that North Korea is on, because, a 
denuclearized Korean Peninsula, particularly a denuclearized 
North Korea, is something that we are completely committed to 
achieving.
    Senator Johanns. Final comment. I only have 30 seconds, 
here.

                   HUMAN RIGHTS ISSUES IN NORTH KOREA

    The nuclear capability of North Korea in such an unstable 
regime is of concern to everybody. But, if one-tenth of the 
claims about human rights violations in North Korea turn out to 
be verifiable someday--and someday they will be verifiable--
this is outrageous, it's shocking. I mean, it's appalling what 
this regime is doing to its people. And I just think, unless we 
figure out a better way forward with North Korea, this will 
visit upon humanity a tragedy that is nearly unspeakable, if 
one-tenth of it's true. It's just unbelievable.
    Mr. Cohen. I agree. I have nothing other to say than that I 
agree with that.
    Senator Udall. Thank you, Senator Johanns.
    I know that you have the--an appointment; you were trying 
to leave at 3:30.
    Mr. Cohen. Yes.
    Senator Udall. We just have one more questioner here for 7 
minutes. Would that be--is that going to be okay, or are we 
going to really----
    Mr. Cohen. Absolutely.
    Senator Udall. Okay.
    Now, Senator Moran.
    Senator Moran. Thank you, Mr. Secretary. And I only have 
one question.
    Senator Udall. Good.
    Senator Moran. Although my preface may be longer than the 
question.

                         APPROPRIATIONS FOR TFI

    It's--something that's transpired here in our hearing, I 
think, is unique. It seems to be that many members of this 
committee, and some who joined us, have been interested in 
providing more money to you. I think the message has been, we 
want to make certain that you have the necessary resources to 
accomplish your mission. That is--and then you had the 
chairperson of our full committee describe the tutorial that we 
were receiving today, and then your testimony--there's a 
sentence in there that I wanted to highlight. When you talk 
about resources, ``We've been able to increase our sanction 
programs and other output by generating program 
efficiencies''--no one would say that anything but good comes 
from efficiency--``effective management''--we're all for that--
``and''--this is the part that I wanted to highlight--``and 
transferring funds, when needed, among organizations and 
programs within TFI.'' And what the tutorial that I received 
today included was a reminder that, when we appropriate money, 
we're appropriating money broader--more broadly than just your 
office.
    Mr. Cohen. Right.
    Senator Moran. That money goes to departmental offices. And 
while the President's request for Terrorism and Financial 
Intelligence is $105.9 million, that's really of a--that's a 
portion of a larger amount of money that would be appropriated 
that's about $309 million to departmental offices.
    Mr. Cohen. Right.
    Senator Moran. The transfer--so, first of all, I would 
suggest to my colleagues who are interested in providing more 
money, to make certain that you accomplish your mission, we 
ought to be very interested in making certain that that money 
goes to you, to your office, to accomplish those goals.
    And then, second, the--your testimony about transferring 
funds. I was interested in knowing, or being assured, that the 
transfer works to you, not that you're transferring money out 
of your office to any of the other departmental offices. Is 
that true?
    Mr. Cohen. Senator, the transfer is within my deputate, as 
it were. So, in----
    Senator Moran. Within TFI.
    Mr. Cohen. Within the Office of Terrorism and Financial 
Intelligence (TFI), from Terrorist Financing and Financial 
Crimes (TFFC) to the Office of Foreign Assets Control (OFAC) or 
to the Office of Intelligence and Analysis (OIA), that's where 
we're able to shift----
    Senator Moran. So, not transfers from--the departmental 
offices that make up this broad allocation of money are 
Executive Direction, your office, Tax Policy, Domestic Finance, 
Economic Policy, International Affairs, Treasurywide 
Management.
    Mr. Cohen. Right.
    Senator Moran. And so, my question is, Do you ever transfer 
money from TFI to any of those other offices within the 
departmental offices?
    Mr. Cohen. So, my understanding is that the--although the 
funds are appropriated to departmental offices, which includes 
TFI, there is a presumptive amount that is for TFI, and those 
are my funds. Those are my funds to use, and they do not get 
transferred away. The other----
    Senator Moran. So, the Treasury Secretary doesn't come to 
you and say, ``Secretary Cohen, we need more money in Tax 
Policy. Can you--we need to transfer money from TFI to Tax 
Policy.'' That doesn't happen.
    Mr. Cohen. Right.
    Senator Moran. Okay.
    Mr. Cohen. Right.
    Senator Moran. Am I missing--is there----
    Mr. Cohen. No. No, I was just going to say, I think all 
those other offices at Treasury do important work, as well. 
But, the funds that are earmarked for TFI are TFI's funds.
    Senator Moran. Well, I--you--while they may do important 
work, it is pretty unusual for a number of my colleagues here 
to be trying to offer more money than you're requesting. And I 
think, in this tutorial that we're having today, it's useful, 
at least for me and perhaps others, to understand that this 
money is not--I don't--sacrosanct within those departmental 
offices.
    Mr. Cohen. Right.
    Senator Moran. It's a broader allocation than just you--
your office.
    Mr. Cohen. It's a broader allocation, but the funds that 
are--I mean, ``earmarked'' is probably not the correct term, 
but the funds that are----
    Senator Moran. It's a word I would not use.
    Mr. Cohen. Yes, I'm sorry. I should--I want to revise and 
extend my remarks on that.
    The funds that are identified as going to TFI are funds 
that are for TFI's use.
    Senator Moran. Okay. Thank you, Mr. Secretary.
    Mr. Cohen. Thank you.
    Senator Moran. Thank you, Mr. Chairman.
    Senator Udall. Thank you. And thank you for closing a 
little early, here, and we'll get him on the road.
    Let me thank everybody who participated in this hearing. 
Appreciate hearing from you, Under Secretary Cohen, as the top 
official of TFI, about resource needs and the sanctions 
program.

                     ADDITIONAL COMMITTEE QUESTIONS

    Today's discussion, I think, has provided helpful insights 
into TFI's operations and challenges. This information will be 
instructive as Congress moves forward with our work on fiscal 
year 2015 funding.
    The hearing record will remain open until next Wednesday, 
April 9th, at 5 p.m., for subcommittee members to submit 
statements and/or questions to be submitted to the witnesses 
for the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted to Hon. David S. Cohen
                Questions Submitted by Senator Tom Udall
                              north korea
    Question. Sanctions against North Korea have not been successful at 
preventing proliferation and other activities that threaten our 
national security. What could Treasury do to make sanctions more 
impactful under the current sanctions regime? What tools or elements 
are missing to make sanctions more effective?
    Answer. Sanctions are an important part of our overall North Korea 
policy and the broad and ongoing international effort to achieve the 
denuclearization of the Korean Peninsula. U.S. and international 
sanctions are intended to raise the cost to North Korea of continuing 
to pursue its nuclear, ballistic missile, and other prohibited 
programs, and to restrict its financing of these programs and it 
proliferation activities, and we have seen some successes.
    To more effectively address the threat posed by North Korea, it is 
essential to secure the commitment of other countries to take action to 
prevent funds being redirected to North Korea's illicit programs and 
proliferation activities. This is particularly true of China, North 
Korea's largest trading partner. The United States has urged China to 
escalate pressure on North Korea, including through the effective 
enforcement of United Nations (U.N.) sanctions against North Korean 
proliferation activities, and Treasury will continue to engage China 
and other countries in the region to restrict North Korea's ability to 
finance its illicit nuclear, ballistic missile, and proliferation 
programs.
                                  iran
    Question. The Government Accountability Office (GAO) and other 
entities have opined that the use of economic sanctions against Iran 
since 2010 have successfully disrupted the Iranian economy. Why have 
sanctions against this nation been more successful than other sanctions 
regimes? What in particular has made these sanctions so impactful? What 
lessons has the Treasury Department learned from the success of 
sanctions against Iran that could be applied more generally to other 
sanctions programs?
    Answer. The Treasury Department coordinates and implements 
approximately two dozen distinct financial sanctions programs, 
including jurisdiction-specific and conduct-based programs. In each 
instance where sanctions have been applied, they have been one tool 
among many deployed. Current sanctions programs are diverse and 
tailored to meet particular national security and foreign policy 
circumstances and the goals and mechanics of how sanctions affect 
specific targets may differ in each instance.
    The United States, working with its international partners, has 
imposed the world's most comprehensive and far reaching set of 
sanctions on Iran. This robust and coordinated multilateral effort has 
been critical to creating leverage for diplomacy. Sanctions have 
slashed and curtailed Iran's access to its oil revenues, isolated it 
from the international financial system, and led to economic 
contraction. U.S. sanctions on Iranian financial institutions, coupled 
with our broad outreach campaign to warn the international financial 
community of the risks associated with doing business with Iran, 
contributed to a sustained downturn in Iranian economic activity.
    Treasury has learned many lessons from our Iran sanctions, 
including the power of coordinated action and the importance of 
tailoring sanctions to best pressure and exploit a target's financial 
vulnerabilities. These lessons are readily applied across the sanctions 
programs we implement.
                               diplomacy
    Question. The Treasury Department and State Department have 
complementary roles in sanctions policy. Please explain how the 
departments work together and with other Federal entities to develop 
and implement sanctions. What are the roles and responsibilities of 
each entity? How do the departments coordinate with each other? How can 
these intergovernmental relationships be improved? How is the 
effectiveness of economic sanctions improved by diplomatic efforts?
    Answer. The Treasury and State Departments are close partners in 
the administration's development and implementation of sanctions. At 
the most senior levels and throughout our agencies, Treasury and State 
regularly confer on sanctions strategy, policy, and enforcement, and 
frequently undertake joint actions employing our respective 
authorities.
    Treasury and State also work closely with other relevant agencies. 
On April 29, 2014, for example, the Departments of Treasury, State, 
Commerce, and Justice undertook joint action against the network of 
serial proliferator Karl Lee. Since 2005, Lee and firms with which he 
has been associated have been subject to nonproliferation sanctions 
pursuant to a variety of U.S. authorities. In this recent set of 
actions, Treasury designated eight of Lee's companies; Commerce added 
nine entities (eight companies and one Chinese national) to its Entity 
List, a compilation of foreign persons determined to have acted 
contrary to the U.S.'s national security or foreign policy interests 
and who are subject to special export licensing requirements; Justice 
unsealed an indictment of Lee; and State offered a $5 million reward 
for information leading to his arrest or conviction.
    As you observe, State and Treasury authorities are complementary, 
and vary across our complex array of sanctions regimes. While there 
naturally exists some overlap because of the broad and flexible nature 
of our sanctions, Treasury focuses extensively, though by no means 
exclusively, on the financial sector, while also targeting agents, 
material supporters, and facilitators of terrorism, proliferation, 
human rights abuses, and other illicit conduct. State identifies and 
targets individuals and entities for primary designation as Specially 
Designated Global Terrorists and as Foreign Terrorist Organizations; 
identifies and sanctions individuals and entities engaged in 
proliferation; works extensively on U.N. sanctions; and focuses more on 
underlying commercial activity and human rights violations and abuses 
of foreign persons and entities.
    Both Treasury and State actively engage in diplomatic outreach as 
an integral part of our sanctions efforts. Officials from both 
departments regularly meet with foreign counterparts and businesses to 
explain our sanctions programs, to demarche them on activities of 
concern, and to coordinate joint action. Such activity is quieter than 
undertaking public designations, but can be equally if not sometimes 
more effective in deterring and disrupting sanctionable conduct.
    State and Treasury--along with the rest of the administration--will 
continue our joint efforts and close cooperation to advance U.S. 
national security and foreign policy objectives.
                                 russia
    Question. As events in Ukraine continue to unfold, please explain 
Treasury's ongoing workload requirements. What resources are being 
utilized to implement sanctions against Russia? What additional 
resources, if any, are needed?
    Answer. To craft sanctions against Russia, we have relied upon 
experts from throughout the Office of Terrorism and Financial 
Intelligence (TFI) and Treasury's departmental offices. Despite the 
recent growth in our sanctions programs, the $102 million provided for 
TFI in the fiscal year 2014 departmental offices appropriation is 
sufficient to allow us to accomplish our mission, as is the President's 
budget request of fiscal year 2015. We have been able to increase our 
sanctions programs and other output by generating program efficiencies, 
effective management, and the reallocation of internal TFI resources to 
address new and emerging trends and issues.
                               venezuela
    Question. There have been calls to sanction Venezuelan officials as 
a result of violence linked to the protests and reactions by the Maduro 
government. Does the Treasury Department believe that sanctions would 
be helpful or harmful with regards to finding a political solution? Is 
it possible that sanctions in this case could be counterproductive?
    Answer. As we have seen in certain contexts, targeted financial 
measures, including sanctions, can be an effective tool when used in 
concert with diplomatic efforts to advance specific U.S. foreign policy 
goals. The administration is currently studying a range of options to 
respond to the violence linked to the protests in Venezuela. We defer 
to our colleagues at the State Department on the U.S. Government's 
overall approach to the current political situation in Venezuela.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
                          central bank of iran
    Question. On November 21, 2011, the Treasury Department identified 
the Islamic Republic of Iran as a jurisdiction of primary money 
laundering concern under section 311 of the USA PATRIOT Act. In that 
finding, you wrote that the Central Bank of Iran (CBI) played a central 
role in facilitating Iran's illicit conduct, including its support for 
terrorism. Based in part on that finding, on December 1, 2011, the 
Senate voted 100-0 in favor of a bipartisan amendment to the fiscal 
year 2012 National Defense Authorization Act (NDAA) to impose sanctions 
on the Central Bank of Iran. There is no doubt that sanctions against 
the CBI remain the most powerful point of pressure on the regime--and 
it's something Iran wants suspended more than anything.
    Putting aside the nuclear program--given Iran's continued support 
for terrorism and its involvement in a range of illicit activities--by 
definition, does the Central Bank of Iran continue to be a primary 
money laundering concern?
    So regardless of what happens on the nuclear front, if the Central 
Bank continues to play a role in terrorism and illicit activities, can 
we have your assurance that the administration will continue to fully 
enforce the CBI sanctions until Iran has ceased all such activities?
    Answer. The section 311 finding under the USA PATRIOT Act of Iran 
as a jurisdiction of primary money laundering concern was, and 
continues to be, based on a range of illicit conduct that Iranian 
financial institutions, including the CBI, were found to have engaged 
in. This activity included Iranian financial institutions' support for 
terrorism and facilitation of Iran's pursuit of nuclear and ballistic 
missile capabilities.
    Treasury is aggressive in our enforcement of TFI authorities and 
continuously evaluates and assesses the role of any Iranian financial 
institution, including the CBI, in illicit conduct and will not 
hesitate to enforce existing sanctions or take action in appropriate 
circumstances now and in the future.
                           iran human rights
    Question. Despite President Hassan Rouhani's rhetoric after his 
election in June 2013, there has been no concrete improvement regarding 
rights and freedoms in Iran. In fact, in his latest report to the 
United Nations Human Rights Council on the situation of human rights in 
the Islamic Republic of Iran, released in March 2014, UN Secretary-
General Ban Ki-Moon stated that ``[t]he new administration has not made 
any significant improvement in the promotion and protection of freedom 
of expression and opinion, despite pledges made by the President during 
his campaign and after his swearing-in,'' and that ``[t]here have been 
no improvements in the situation of religious and ethnic minorities, 
who continue to suffer severe restrictions in the enjoyment of their 
civil, political, economic, social and cultural rights.'' Yet since May 
2013, the administration has not designated any Iranian officials or 
entities as human rights abusers.
    In a July 2012 letter to me, the Department of State pledged that 
``[t]he Departments of State and Treasury will continue to work 
together to implement both the Comprehensive Iran Sanctions and 
Divestment Act of 2010 and Executive Order 13553.'' Since June 2013, 
what has the Department of Treasury done to implement section 105 of 
the Comprehensive Iran Sanctions and Divestment Act (CISADA), Executive 
Order 13553 and Executive Order 13606?
    Answer. The U.S. Government is armed with a variety of authorities 
that authorize Treasury to target the Iranian Government's human rights 
abuses and censorship activities. Taken together, these authorities 
provide Treasury with the flexibility to pursue human rights abuses 
vigorously. Most recently, on May 23, 2014, the Department designated 
Morteza Tamaddon, an Iranian Government official, under Executive Order 
13628 for his censorship-related activities. To date, Treasury has 
designated 19 Iranian individuals and 17 Iranian entities for human 
rights abuses and censorship under various authorities, including 
CISADA, and Executive Orders 13553, 13628, and 13606. Treasury 
continuously evaluates potential targets for designation for human 
rights abuses and will not hesitate to take action in appropriate 
circumstances.
                                 turkey
    Question. On December 17, 2013, businessman Reza Zarrab was 
arrested as part of a wide ranging corruption investigation in Turkey. 
Four Turkish ministers resigned, allegedly as a result of the 
revelations relating to their connections to Zarrab. Despite the 
evidence against him, Zarrab was released in February 2014.
    As you know, according to reports, Zarrab played an integral role 
as part of Turkey's ``gas-for-gold'' scheme, where he transported gold 
as payment by Turkey for Iranian gas, valued at upwards of $28 billion. 
Moreover, reports in Turkey have linked Zarrab to Yasin Al Qadi, the 
Saudi Arabian businessman with ties to Al Qaeda, the Turkish 
Humanitarian Relief Foundation (IHH) which organized Mavi Marmara, and 
Mansour Arbabsiar, who was sentenced in May 2013 for participating in a 
plot to murder the Saudi Arabian Ambassador to the United States, and 
possibly of being a member of the Iranian al-Quds Force.
    Has Zarrab been considered for designation as part of the 
Treasury's Special Designated Nationals List (SDN)?
    Has the Turkish Government shared with you or any other U.S. 
Government agency the evidence that allegedly ties Reza Zarrab to 
terrorism finance?
    Has the U.S. Government asked--and if so, has the Turkish 
Government agreed--to provide access to Mr. Zarrab?
    Is the Treasury Department coordinating with European allies or 
other authorities to investigate any corruption tied to Turkey and 
concerns relating to Turkey serving as a conduit for terrorist funding?
    Answer. We are aware of the media reports you cite. The Treasury 
Department does not comment on potential designations and ongoing 
investigations. However, we regularly coordinate with our international 
partners, including Turkey and our other European allies, with respect 
to Iran sanctions and terrorism finance. We will not hesitate to take 
action in appropriate circumstances and continue to actively target 
sanctions evasion.
                              cyber crime
    Question. Recent high profile data breaches in the United States 
have demonstrated that cyber crimes have a massive impact on individual 
American consumers and the broader economy, and even threaten national 
security. These cyber crimes are transnational crimes, and the world's 
leading nations must work together to protect their citizens through 
international coordination. We have a joint responsibility to ensure 
that specific foreign countries do not become safe havens for cyber 
criminals.
    What is your office currently doing to identify these transnational 
threats, and what coordination is occurring with your international 
counterparts, particularly in geographical areas where these cyber 
criminals are known to exist, such as Ukraine?
    Answer. TFI targets cyber threats that could impact the U.S. 
financial sector or pose a threat to national security. These threats 
may include financial fraud, money laundering, terrorist financing, and 
attacks on critical infrastructure. TFI has specific tools it has used 
to combat cyber threats, including section 311 of the USA PATRIOT Act 
and civil enforcement actions. TFI will continue to use its authorities 
as appropriate.
    TFI directs financial institutions to report suspicious activity 
related to cyber crime to support law enforcement identification of 
cyber threats and our efforts to identify significant cyber criminals 
and suspect financial institutions. In addition, TFI works with 
intelligence and law enforcement partners to identify cyber threats and 
provide analysis of the threat environment. TFI also engages with 
international partners to gather information and support operational 
and strategic analyses of cyber threats.

                          SUBCOMMITTEE RECESS

    Senator Udall. The subcommittee hearing is hereby 
adjourned.
    [Whereupon, at 3:35 p.m., Wednesday, April 2, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
